<html>
<title> - THE USE OF THE JOINT TRIBAL ADVISORY COMMISSION FUNDS BY THE STANDING ROCK SIOUX TRIBE</title>
<body><pre>[Senate Hearing 107-419]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-419

 THE USE OF THE JOINT TRIBAL ADVISORY COMMISSION FUNDS BY THE STANDING 
                            ROCK SIOUX TRIBE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

TO DISCUSS THE FUNDING AUTHORIZED UNDER THE THREE AFFILIATED TRIBES AND 
        THE STANDING ROCK SIOUX TRIBE EQUITABLE COMPENSATION ACT

                               __________

                             APRIL 3, 2002
                             FORT YATES, ND

78-904              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

FRANK MURKOWSKI, Alaska              KENT CONRAD, North Dakota
JOHN McCAIN, Arizona,                HARRY REID, Nevada
PETE V. DOMENICI, New Mexico         DANIEL K. AKAKA, Hawaii
CRAIG THOMAS, Wyoming                PAUL WELLSTONE, Minnesota
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
                                     MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Archambault, Dave............................................    22
    Conrad, Hon. Kent, U.S. Senator from North Dakota............     1
    Defender Wilson, Mary Louise.................................    15
    End of Horn, Lynes, Bear Soldier District....................    50
    Good House, Cedric, vice chairman, Executive JTAC Commission, 
      Standing Rock Sioux Tribe..................................    31
    Harrison, Janet, representative, Rock Creek District.........    47
    Hill, Manajaunjinca..........................................    33
    Iron Eyes, Chase.............................................    47
    Jones, Cora, Aberdeen Regional Director, BIA.................     8
    Kills Pretty Enemy, Jerald, representative, Rock Creek 
      District...................................................    49
    Marvin, Shirley, Tetuwan Oceti Sakowin Treaty Council........    39
    McLaughlin, Jeff.............................................    34
    McLaughlin, Robert...........................................    18
    McNeil, Ron Sun, president, Sitting Bull College.............    25
    Medicine, Errol..............................................    46
    Medicine, Wilma..............................................    48
    Mentz, Alma..................................................    40
    Murphy, Charles W., chairman, Standing Rock Sioux Tribe......     4
    Red Tomahawk, Pete, district chairman, Cannon Ball Comunity..    33
    Silbernagel, Shannon, member, Executive JTAC Commission......    43
    Taken Alive, Faith, Bear Soldier District....................    37
    White Bull, Maxine, Kenel District...........................    51
    White Eagle, Wanda...........................................    37
    White Mountain, Anthony, progam coordinator, Lakota Resident 
      Management Corporation, McLaughlin, SD.....................    41
    White, Randal, tribal councilman, Porcupine, ND..............    40
    Wiest, Fred, owner, Grey Eagle Management....................    44
    Yellow Fat, Terrence, chairman, Fort Yates District Council, 
      Fort Yates, ND.............................................    30
    Young, Phyllis, member, Fort Yates Local District Planning 
      Commission.................................................    42

                                Appendix

Prepared statements:
    Archambault, Dave............................................    74
    Defender Wilson, Mary Louise (with attachments)..............    56
    Good House, Cedric...........................................   233
    Jones, Cora..................................................    53
    McLaughlin, Robert...........................................    65
    McNeil, Ron Sun..............................................    53
    Murphy, Charles W............................................   238
    Yellow Fat, Terrence (with attachments)......................    78
Additional material submitted for the record:
    End of Horn, Lynes, survey...................................   242
    Martin, Theresa, letter......................................   236

Note: Other material submitted for the record are retained in 
  committee files.

 
 THE USE OF THE JOINT TRIBAL ADVISORY COMMISSION FUNDS BY THE STANDING 
                            ROCK SIOUX TRIBE

                              ----------                              


                        WEDNESDAY, APRIL 3, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Fort Yates, ND.
    The committee met, pursuant to notice, at 10:30 a.m. at 
Standing Rock High School, Fort Yates, ND, Hon. Kent Conrad 
(acting chairman of the committee) presiding.
    Present: Senator Conrad.
    Mr. Murphy. I would like to introduce Senator Kent Conrad 
to the Standing Rock Indian Reservation here. Let's give him a 
nice round of applause. Okay?
    [Applause.]
    Mr. Murphy. Senator, I know that we're pushing for time and 
we've got a lot of people here that's going to be asking 
questions and telling you what good things we're doing for 
Standing Rock, so I'll turn the mike back to you.

 STATEMENT OF HON. KENT CONRAD, U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. Thank you very much, Chairman Murphy, and a 
special thanks to the veterans and to the singers for a very 
appropriate way to begin this hearing.
    Let me just first indicate that this is an official hearing 
by the Committee on Indian Affairs of the U.S. Senate, and, 
therefore, we will follow the rules of the U.S. Senate in 
conducting this hearing. Chairman Inouye, himself, has 
authorized this hearing, and as the second-ranking member of 
the committee, this is a special privilege for me to be here to 
discuss legislation that is critically important to the tribe 
and critically important to me.
    I am very pleased to be here to discuss the funding 
authorized under the Three Affiliated Tribes and Standing Rock 
Sioux Tribe Equitable Compensation Act, more commonly called 
the JTAC legislation.
    People ask me all the time, what does JTAC stand for? It 
stands for Joint Tribal Advisory Committee.
    You'll recall back in the 1980's this committee was created 
to determine what was owed to the tribes because of the 
flooding of lands that belonged to the tribes, the Three 
Affiliated Tribes and Standing Rock Tribe. There were promises 
that were made that were never kept. There were valuable 
resources of the tribes that were destroyed and that were not 
properly compensated for. There were tremendous timberlands 
that were destroyed from the flooding of the lands. There were 
ranching and farming lands that were lost. And while they were 
paid for at the time of the taking, the judgment was made that 
they were not properly paid for. The compensation was not as 
much as it should have been.
    I was the principal sponsor of the JTAC legislation to try 
to right this wrong that was done years ago. And in the 
settlement that we were able to reach with our colleagues in 
the United States Senate, this Tribe received over $90 million 
that is held in a trust account. The interest from that account 
is made available for expenditures to improve the economic 
conditions of the people of this Tribe. That is the purpose for 
the JTAC funding. It is to improve the economic lives and 
restore the economic vitality of this community.
    Now, we know $90 million, while it's a lot of money, is not 
enough to do everything that needs to be done. There are many 
things that should be done that are not being done. We know 
that there are tremendous unmet needs. We can see it in this 
school building that we're in. This school building is not what 
it should be. Money should be spent here. The Federal 
Government has an obligation here to provide a good place for 
an education. And we know there are many other unmet needs. We 
can see it in the housing and in the health care. We can see it 
in the jobs or the insufficiency of the jobs that are available 
in this community. Those are all unmet needs. And the JTAC 
funding was intended to provide a down payment on meeting past 
promises, promises that were not kept.
    So this hearing is an attempt to find out what is happening 
with those funds, the money that has been committed so far, 
remembering that the $90 million of principal is in the Federal 
treasury. It is only the interest from that money that is 
available for the tribe.
    I think many of us understand that when the Federal 
Government flooded the lands of these reservations during 
construction of the two mainstem dams on the upper Missouri, 
that great injustices were done to the people of this Tribe and 
to the people of the Three Affiliated Tribes.
    When the Oahe Dam was constructed, 56,000 acres of private 
land were lost and 190 tribal families were forced to relocate. 
Ninety percent of the timbered area on the reservation was 
demolished and thousands of acres of exceptional grazing and 
rangeland were eliminated. Of the ranchers at Standing Rock, 60 
percent saw their land disappear.
    Those are the facts. Those are things that happened to 
accommodate the flooding of the land to provide these mainstem 
reservoirs. And JTAC is designed to go back and try to redress 
some of the wrongs that were done at that time.
    The Equitable Compensation Act was the result of 
recommendations made by two reports. The first was entitled the 
Final Report of the Garrison Unit Joint Tribal Advisory 
Committee; therefore, JTAC, Joint Tribal Advisory Committee, a 
special committee created by former Interior Secretary Donald 
Hodel. The 1986 report acknowledged the Federal Government's 
obligation to compensate the tribes.
    The second report, which was conducted by the General 
Accounting Office, analyzed the JTAC report and the methodology 
used in developing it. The General Accounting Office concluded 
the Tribe was owed between $64 million and $170 million. The 
levels of compensation proposed in the JTAC bill fall within 
that range, and we were able to secure $90.6 million for 
Standing Rock.
    I am proud, very proud, of the work we did in passing the 
JTAC bill. It was the result of years, and I mean years, of 
work and much negotiation. When we started this effort, I was 
told by colleagues in the United States Senate there was no way 
that we could possibly succeed. We were at meetings in which we 
were told repeatedly that we would never get this kind of money 
for the Standing Rock Reservation.
    It was only when I came up with an idea of funding this 
legislation outside of the Federal budget window, which was a 
5-year period, and in a way that avoided the Appropriations 
Committee entirely that we were able to succeed.
    As the principal sponsor of the JTAC legislation, I am very 
interested in ensuring that it produces long-term benefits to 
the people of this reservation. The compensation legislation 
was designed to allow the Standing Rock Tribe the opportunity 
to rebuild and gain financial independence. It provides 
resources for the general health and welfare of the Tribe and 
its members, and by doing so it also adds important resources 
to the North Dakota economy as a whole.
    While it was not everything that we wanted, I will tell you 
I didn't start by asking for $90 million. It was only when it 
was clear that that's the most that we could get that I agreed 
to that figure. It does have the potential to make a big 
difference in the future of this tribe and its people.
    The interest on the money in the Standing Rock Sioux 
Equitable Compensation Fund became available for use on October 
1, 1997. That's just over 4 years ago. I believe now is a good 
time to take a look at how these funds are being used.
    I want to first thank Chairman Murphy and his staff for 
helping organize this hearing. I appreciate all that you have 
done to accommodate the needs of the hearing, Chairman Murphy.
    I would also like to thank Cora Jones, who is the Great 
Plains Area Director of the Bureau of Indian Affairs, for 
testifying here today. The United States Department of the 
Interior is charged with approving the plan for the use of 
these funds. That responsibility has been delegated to Ms. 
Jones, so I believe her testimony is especially important today 
in giving a complete picture of what has occurred.
    Finally, I would like to remind everyone that this is a 
public hearing. Although we only have time for a limited number 
of witnesses, additional testimony can be submitted for the 
hearing record up to 14 days following this hearing. Those who 
would like to submit testimony for the record can do so by 
sending it to my office no later than April 17.
    Again, I want to thank all of you for being here today. I 
look forward to your testimony and to the discussion that will 
follow.
    Our first panel will be Chairman Murphy of the Standing 
Rock Sioux Tribe and Cora Jones, the Great Plains Regional 
Director for the Bureau of Indian Affairs from Aberdeen, SD. I 
thank you both for being here today. And we will then follow 
with a second panel of four witnesses who have been selected 
and recommended by members of the broader community to be the 
official witnesses at this hearing.
    After we have finished with the first two panels, we will 
then open it for comments by people in the audience. At that 
time you will be asked to identify yourself for the record and 
we will take whatever comments that you would want to make at 
that time.
    Let me begin by welcoming Chairman Murphy to this hearing 
and asking you to proceed with your testimony.

 STATEMENT OF CHARLES W. MURPHY, CHAIRMAN, STANDING ROCK SIOUX 
                             TRIBE

    Mr. Murphy. Thank you, Senator. First of all, I want to 
welcome you here again.
    I want to thank you for allowing us to say a few words on 
what has happened with the JTAC since we had received it, only 
the interest. There is many things that we have done with our 
money to make the improvements within the reservation. We have 
built a school in Wakpala, helped build that school, because 
one of the problems that we have been having in Wakpala with 
your partner--Senator Tom Daschle was also down there visiting 
that particular school at Wakpala. The school was in terrible 
shape. Now the students are living and working in a nice 
facility.
    The other thing----
    Senator Conrad. Is that on the South Dakota side?
    Mr. Murphy. Yes; it is.
    Senator Conrad. Can we get something on the North Dakota 
side now?
    Mr. Murphy. Well, I guess, Senator, we don't have that line 
here. That's the reason why we have to work the whole 
reservation. But those are some of the things that are 
happening, Senator.
    But the problem I have with this--with the hearing today, 
is what I would like to see done is that the 20,000 acres that 
belongs to us be returned to us, and that has not happened yet.
    And my testimony has other things in there. We have helped 
the colleges, and so forth, and we are doing a lot of good 
things with it, but I have other people who are going to be 
talking about that and it's also in Mr. McLaughlin's report, 
also. What I would like to do is let my time go for other 
people so they can give their testimony on the positive things 
that are happening within the Standing Rock Reservation.
    Senator Conrad. For the purposes of the record, Chairman 
Murphy, let me just first enter your letter to me dated March 
29 regarding the disposition of the funds. And I think it might 
be useful before we go to Cora Jones' testimony for me to go 
through the highlights of that so I understand as fully as we 
can what the disposition of the funds has been thus far. And I 
think that's important for the record.
    Mr. Murphy. Okay.
    [Referenced letter appears in appendix.]
    Senator Conrad. First, I think we start with the total of 
the funds that have been committed. I believe the total of 
funds that have been committed is $46.3 million. Is that 
correct?
    Mr. Murphy. That's correct.
    Senator Conrad. $46.3 million. And as I analyze what I see 
in your letter to me on the disposition of those funds, it 
indicates that there are still some $8 million of interest that 
is available for expenditure at this point.
    Mr. Murphy. That's correct.
    Senator Conrad. Of the $46.3 million that has been 
allocated, these are the categories that I draw from your 
letter, and I would like if you could correct me if I am in 
error on any of these amounts.
    Mr. Murphy. Okay.
    Senator Conrad. I see under the broad category of schools 
$12 million that's been drawn down that is on deposit for 
school construction and repair that has not yet been obligated. 
It's been allocated for the purpose of schools, but it has not 
yet been actually used. Is that correct?
    Mr. Murphy. That's correct.
    Senator Conrad. And those funds, what is the intention for 
that $12 million with respect to schools?
    Mr. Murphy. Some of it is with the colleges, Department of 
College where we had committed x number of dollars for them to 
do the college out here, and other needs--like this school here 
also has some needs. Those are the things that we are talking 
about, Senator.
    Senator Conrad. Well, one thing I would very much like to 
see is, I would like to see some of that money used for this 
school. I think we all know this school was badly designed.
    Mr. Murphy. That's correct.
    Senator Conrad. And we have this open architecture and we 
have a heating system that doesn't work for North Dakota 
winters. I guess this school was designed by an architect from 
the southwestern part of the United States; isn't that right?
    Mr. Murphy. That's correct.
    Senator Conrad. So hopefully some of those funds that are 
on deposit now for schools, some of that money will be used 
here. Is that the intention?
    Mr. Murphy. That's correct.
    Senator Conrad. In addition to the $12 million that's on 
deposit for construction of additional schools in Standing Rock 
and maintenance, there's an additional $4 million that has been 
committed to Sitting Bull.
    Mr. Murphy. That's correct.
    Senator Conrad. Then there is the $4.3 million for Wakpala 
which you mentioned in your opening testimony. And then there 
is $500,000 that has been allocated to help tribal members 
attend graduate school. Is that correct?
    Mr. Murphy. That's correct.
    Senator Conrad. Have all of those funds been used? The $4.3 
million, has that been expended for the Wakpala School fully?
    Mr. Murphy. Yes; it has.
    Senator Conrad. All that money has been used. The $500,000 
that was allocated to help people attend graduate school, has 
all of that money been consumed?
    Mr. Murphy. Yes; that has been used.
    Senator Conrad. So that is gone. What amounts has that gone 
to? How many students has that helped?
    Mr. Murphy. I don't have the number right offhand, Senator, 
but I could sure get you the number.
    Senator Conrad. If you could give us the number of how many 
students that's helped. Do you have a rough idea of how many 
students that may have helped?
    Mr. Murphy. I do not want to give a number because I would 
have to--I would look the number up first.
    Senator Conrad. If we could get the number. I think it's 
important for the record how many students that's helped.
    The $4 million for the Sitting Bull College, has any of 
that money been used so far?
    Mr. Murphy. The Sitting Bull College president will be up 
here testifying and you can ask him that.
    Senator Conrad. We can ask him that question. So there's 
$12 million on deposit to help schools, $4 million for Sitting 
Bull College, $4.3 million for Wakpala, $500,000 to help people 
go to graduate school. That's a total of $20.8 million for 
schools.
    Then in the broader category of economic development 
there's been $13 million provided to the districts. As I 
understand it, each of the districts has received a million 
dollars, although the Kenel District has received $6 million. 
Is that correct?
    Mr. Murphy. That's correct.
    Senator Conrad. And what is the reason for the difference 
between what the districts have individually received and the 
Kenel District getting--is that because they have more 
population?
    Mr. Murphy. No; what has happened, Senator, it was given to 
the Kenel District for a couple reasons. One was that they 
moved from the bottom up to the top of where they are living 
right now, which is approximately about 5 miles--4\1/2\ miles 
south of old Kenel, and they were subsidized back in 1958, but 
not really subsidized for what had happened. They lost more 
homes and agriculture land, and so forth. And what has happened 
then is that we gave Kenel District x number of dollars by the 
recommendation of the Tribal Council.
    Senator Conrad. And that was to compensate for what had 
been taken?
    Mr. Murphy. Correct.
    Senator Conrad. Then under the broad category of--so in 
terms of the districts, there's $13 million. So that gives us a 
total so far of $33.8 million.
    Mr. Murphy. Correct.
    Senator Conrad. Then there are moneys that has been 
allocated for land purchases.
    Mr. Murphy. Correct.
    Senator Conrad. As I see it, there's $12 million been 
allocated for that purpose and $8.4 million of that used so 
far. Is that correct?
    Mr. Murphy. Just about that much, right.
    Senator Conrad. So there is still some $3.6 million 
available in that category?
    Mr. Murphy. That's correct.
    Senator Conrad. Of the $12 million for land purchases, in 
one part of the letter it indicates that 30,000 acres has been 
acquired. In another part of the paragraph it indicates some 
60,000 acres has been acquired. For the record, can you clarify 
that?
    Mr. Murphy. Those are particular ranches that were 
purchased in South Dakota and North Dakota.
    Senator Conrad. And what is the total that has been 
purchased so far? In one part of the letter it indicates 30,345 
acres. In another part of the letter it says, thus far we have 
purchased over 65,000 acres. It was just unclear to me. Is the 
65,000 the total that's been purchased?
    Mr. Murphy. That's what we have on hand. We purchased part 
of the 65,000, but a lot of the applications that we have on 
hand are not added up to that yet.
    Senator Conrad. I see. So what's actually been purchased so 
far is 30,000 acres?
    Mr. Murphy. Correct.
    Senator Conrad. But there are applications for an 
additional 35,000?
    Mr. Murphy. Right.
    Senator Conrad. That would give a total of 65,000 if all of 
that were done?
    Mr. Murphy. Correct.
    Senator Conrad. All right.
    Mr. Murphy. But, Senator, some of the 60--the total of the 
60,000 acres that we bought partials in, also, so we don't have 
that completely purchased.
    Senator Conrad. No; I understand. Only part of that has 
been acquired.
    Mr. Murphy. Correct.
    Senator Conrad. But just so we make sure we are clear here, 
the total purchases thus far would be the 30,000 acres?
    Mr. Murphy. Correct.
    Senator Conrad. And that's consumed $8.4 million?
    Mr. Murphy. Correct.
    Senator Conrad. All right. So that's roughly $280 an acre?
    Mr. Murphy. Approximately that.
    Senator Conrad. So that gives us a total of $45.8 million, 
and then there's the category of EDF&I. Under the EDF&I fund 
the Tribe has withdrawn $500,000 and established a business 
equity loan committee to administer these funds; is that 
correct?
    Mr. Murphy. That is correct.
    Senator Conrad. So that would add up to the total of $46.3 
million.
    Mr. Murphy. Correct.
    Senator Conrad. Just to repeat, of the $46.3 million, $20.8 
million reserved for schools, but it would appear to me that 
most of that has not yet been expended.
    Mr. Murphy. Correct.
    Senator Conrad. There would be the $13 million that's gone 
to the districts. Can you tell us the disposition of those 
funds? Have the districts used those funds at this point?
    Mr. Murphy. Some districts are. Some are still hanging onto 
their money yet, until they bring a plan in showing us what 
they are going to be doing.
    Senator Conrad. So do we know how much of that $13 million 
has been expended so far?
    Mr. Murphy. Not at this time. I could check. I would have 
to check with the finance office.
    Senator Conrad. All right. And of the land purchases, $12 
million, $8.4 million has been used of that $12 million. So a 
substantial amount of the money has still not been actually 
spent. It's on deposit for specific uses, but we have not yet 
seen the full effect in the community. That would be fair to 
say.
    Mr. Murphy. Correct.
    Senator Conrad. And of the EDF&I funds, the loan funds, as 
I read this, about 400,000 is still available of that $500,000.
    Mr. Murphy. That's correct.
    Senator Conrad. $393,000 is still available. So as I total 
it up here, a substantial amount of the money, $16 million 
under the schools category, almost $4 million under the land 
purchases, that's $20 million, plus the $8 million that's still 
available to draw-down, plus some part of the district money 
has not actually been spent yet. It's been allocated, you have 
reserved it for certain purposes, it's not yet been spent. 
Would that be a fair summation?
    Mr. Murphy. That would be fair.
    Senator Conrad. All right. I think that's important for the 
record and for people to understand how these funds are being 
allocated thus far. I think one thing that would be important 
for the record is, what is the intention with respect to the 
$12 million for schools? What are the specific projects that 
that money has been reserved for?
    Mr. Murphy. Some of them are for repairs. Some of them are 
asking to add onto their school for larger classrooms, and so 
forth. But, Senator, the problem is that we do not have all the 
dollars to really meet the needs of our schools because we have 
several schools on the North Dakota portion and we have several 
schools on the South Dakota portion.
    Senator Conrad. How many schools do you have that are being 
supported by the Tribe? You have got this school, of course.
    Mr. Murphy. Probably about 12 to 13 schools.
    Senator Conrad. Probably 12 to 13 schools. So there's 
obviously a tremendous need in that area.
    Mr. Murphy. Correct.
    Senator Conrad. All right. With that, why don't we turn to 
Cora Jones for her testimony.
    Mr. Murphy. Thank you, Senator.
    Senator Conrad. Again, welcome. Thank you, Chairman Murphy, 
for your testimony.

STATEMENT OF CORA JONES, ABERDEEN REGIONAL DIRECTOR, BUREAU OF 
                         INDIAN AFFAIRS

    Ms. Jones. Good morning, Senator.
    Senator Conrad. Good morning.
    Ms. Jones. Always a pleasure to see you and welcome to 
Standing Rock. It's a nice place to come and visit.
    Good morning, everyone, Mr. Chairman, members of the 
committee. My name is Cora Jones and I am the Regional Director 
for the Great Plains Region of the Bureau of Indian Affairs. 
And I am pleased to be here today to discuss the Standing Rock 
Sioux's economic recovery fund provisions within JTAC.
    And the act, of course, which established the Economic 
Recovery Act, the Bureau has been delegated that authority to 
ensure that it is utilized the way the law states. And the 
tribe is authorized to use the interest on the 90.6 million and 
those purposes are for education, social welfare, economic 
development, and other programs, subject to the approval of the 
Secretary. And that would be the Secretary of the Interior, of 
course.
    In fiscal year 1998, the tribe could begin withdrawing the 
accrued and annual interest subject to approval of the 
Secretary. This, of course, was delegated down to my office.
    On June 16, 2000 I did approve the Standing Rock Sioux 
Tribes' Joint Tribal Advisory Committee Fund Access Plan. And 
this plan, established in consultation with tribal members and 
the BIA, outlines the tribe's proposed uses for the interest 
generated from the principal amount in the fund. The tribe 
submits requests for withdrawing funds to me through the 
Standing Rock Agency. These requests are reviewed for 
compliance with the act and consistency with the plan. When the 
Bureau approves the request, we forward it on to the Special 
Trustee's Office of the Trust Funds Management down in 
Albuquerque, NM, where disbursement is made, and it is the 
final processing and disbursement of the payment.
    And thus far the tribe has requested and received six 
payments totaling the $46.3 million in interest. And any 
funding request outside the plan, of course, will have to be 
approved. And that concludes my prepared statement, sir.
    [Prepared statement of Ms. Jones appears in appendix.]
    Senator Conrad. So let me go over with you, if I can, Ms. 
Jones, the distribution of these funds. You have heard the 
outline that I provided based on Chairman Murphy's provision of 
the letter to me. Do you disagree with any of the allocations 
that I outlined in the questions to Chairman Murphy?
    Ms. Jones. No; and, Senator Conrad, I did bring copies of 
the 1034's showing what the tribe did draw-down, and I would be 
happy to submit that to you.
    Senator Conrad. I would appreciate that for the record. Can 
I go over these matters where money has been allocated and ask 
you for what your understanding is of the uses of those funds. 
The $6 million that was the first amount of money that you 
approved, that was for land purchases; is that correct?
    Ms. Jones. Yes.
    Senator Conrad. Then subsequently there was another $6 
million that was allocated for that purpose?
    Ms. Jones. Yes.
    Senator Conrad. And is it your understanding that some $8.4 
million of that has been used so far for that purpose?
    Ms. Jones. That's correct.
    Senator Conrad. When you allocate money, when you allow a 
draw-down, is it an open-ended circumstance with respect to 
land purchases, or is it tied to specific land purchases that 
are to be made?
    Ms. Jones. Primarily it's open. The tribe generally will 
have--they will have a list of land that they do want to 
purchase, but we never know for sure what is going to be 
purchased because there is negotiations that need to take place 
and it's a lengthy process. And as you well know, we have an 
inherited interest, a fractionated interest in this region that 
is worse than anyplace in the country. And so when the tribe 
decided to go this route, I really applauded their efforts 
because it helps to solidify that land base that is so sorely 
needed.
    Senator Conrad. And what is your understanding of how much 
land would be purchased with that $12 million that's been 
allocated for that purpose?
    Ms. Jones. Right offhand, I don't know.
    Senator Conrad. Could you get that for the purposes of the 
record?
    Ms. Jones. Yes.
    Senator Conrad. And of the requests for draw-down that have 
been made, I would like to know, what is the amount of land 
that you anticipate being purchased with that amount of money? 
Let me go to the amount of money for schools. Chairman Murphy 
indicated in his testimony the money for the Wakpala School, 
that's $4.3 million, that was approved by you as part of an 
overall plan--is there an overall plan that is in place?
    Ms. Jones. Yes; there is.
    Senator Conrad. From the tribe?
    Ms. Jones. Yes.
    Senator Conrad. And these amounts of money are in line with 
what is part of this overall plan; is that correct?
    Ms. Jones. Yes; they are.
    Senator Conrad. And so the $4.3 million for the Wakpala 
School, that was part of an approved plan?
    Ms. Jones. Yes.
    Senator Conrad. And the $4 million for the Sitting Bull 
College, that has also been drawn down?
    Ms. Jones. Yes.
    Senator Conrad. To your understanding, has that money been 
used?
    Ms. Jones. With the Sitting Bull College, I don't know.
    Senator Conrad. We will get the testimony of the president 
because he will be testifying in the next panel. Then there has 
been $12 million drawn down that is on deposit for school 
needs, for school construction and maintenance purposes. We 
have heard the chairman's testimony on that. And you approved 
that draw-down. Did you approve that in light of a specific 
plan for the use of that money?
    Ms. Jones. It was a general plan.
    Senator Conrad. And how general are we talking about?
    Ms. Jones. I would have to go back and look at it 
specifically in order to answer that, but when--I guess we are 
all so firmly aware of the needs, the needed needs for 
resources that exist at these schools, I don't have specifics 
as to, what they are going to be doing in the school, whether 
it's rebuilding a theater, putting up walls where the open 
classrooms used to be. I honestly don't have that. But, you 
know, we do have an education line officer here at Standing 
Rock and she should be watching over that very carefully to 
make sure that the students here receive the best possible 
education and in the safest and best environment possible.
    Senator Conrad. Let me just say that this concerns me. It 
seems to me that if there is a plan, before money is released 
that the specifics of how that money is going to be used should 
be required by your office. You should know. I mean, if I were 
in your position, I would want to know what I am releasing the 
money for. And I think it should be specific, what school, what 
projects, because I don't know how you can know at the end of 
this process whether or not the plan has been followed if there 
aren't specifics attached to the release of funds.
    Ms. Jones. I firmly understand your concern with that. My 
problem is sometimes I get caught up in a Catch-22, and that 
is, you know, how far do we go in overseeing the tribe's 
responsibilities? Do we micromanage them, or do we allow them 
to go with self-determination, do exactly what they know is 
right--for the best--in the best interest of the tribal 
membership?
    Senator Conrad. I am going to say--I would give my answer 
to that. My answer would be the tribe, this is their money, 
it's their responsibility to spend it, but you have got an 
oversight responsibility.
    Ms. Jones. Yes; I do.
    Senator Conrad. And it's very clear in the law, very clear. 
And I believe there should be accountability. I really do 
believe that. I mean, I think it is very, very important that 
if there is--this is money that comes from the Federal treasury 
to right a wrong that's been done and there is very clear 
responsibility. You have responsibility. I have responsibility. 
The chairman has responsibility. And I believe before funds are 
released, it should be the tribe's plan. They are in the best 
position to make a determination how that money is needed, 
absolutely, but before you release the money, you should know 
where it's going.
    Ms. Jones. Yes; we do receive the 1034. That's the draw-
down document that's needed in order to release the money. We 
receive a resolution from the tribe saying what that money is 
going to be used for. And we do review it to see whether it's 
in accordance with the plan.
    Senator Conrad. What I am hearing, I am hearing two 
different things. I am hearing, on the one hand, there is a 
plan, but then when I probe for how that money is specifically 
going to be used, that plan seems to be very amorphous, it 
seems to be very general. It isn't specific about what school, 
what project. Am I right?
    Ms. Jones. Yes.
    Senator Conrad. Well, I just say it seems to me this thing 
needs to be changed so that when money is requested from you--a 
plan doesn't mean anything unless it's got specifics attached 
to it. I don't know what it means when somebody asks for $12 
million for schools and I don't know what school, what project, 
is it going to go to dealing with the heating system in this 
school, is it going to go to having individual classrooms in 
this school instead of this open architecture where you can 
hear the class next-door so you can't hear yourself think?
    And, absolutely, that plan should be the tribe's 
determination. The tribe is in the best position to determine 
what the priorities are, how the money should be used. That's 
self-determination. Absolutely. I do say this. I think it is 
very important that before money is released after the tribe 
makes a request, that it's got to be sufficiently detailed that 
you know where the money is actually going.
    Ms. Jones. Within the tribe's resolutions, it states where 
they are going to be using that money.
    Senator Conrad. In what detail? Can you read to me----
    Ms. Jones. Well, right here, It has therefore been resolved 
Standing Rock Sioux Tribe hereby approves to assist the Wakpala 
District for a new school facility in the amount of $4,300,000 
with revenues from JTAC. And previous to that, one of the 
``whereases'' was to upgrade the school facilities in order to 
provide the children with quality education. Another whereas, 
to assist the Wakpala District for a new school facility. You 
know, and knowing how much various facilities cost across this 
region, the 4.3 to me was a number that seemed adequate.
    Senator Conrad. I just say to you, that to me--that to me 
would not be adequate to release money. It really would not. I 
would expect if--and I'm all for what you did in Wakpala. Don't 
misunderstand what I'm saying. I'm not being critical of your 
request for the money.
    But I would say to Ms. Jones, I believe it is your 
responsibility to have sufficient detail attached to those 
requests that you could tell me exactly where that money is 
going. And this $12 million is in an account, as I understand 
it, for schools. What is the level of detail that has been 
provided to you as to how that $12 million will be used?
    Ms. Jones. I would have to defer to--I have got my tribal 
governments officer here.
    Senator Conrad. Why don't we have that person come up.
    Ms. Jones. And I would like to have Dean Webb come up.
    Senator Conrad. That's fine.
    Ms. Jones. He makes sure the payments get made. If they 
would come up.
    Senator Conrad. Let's have those people come up, because 
before we leave here, I want to know what that $12 million 
that's in an account is going to go for.
    Ms. Jones. Senator, I would like to introduce Earl Azure. 
He is the tribal governments officer.
    Senator Conrad. If you could spell your name for the 
stenographer so we have it for the record.
    Mr. Azure. Last name is spelled A-z-u-r-e.
    Senator Conrad. Welcome Mr. Azure. Good to have you here.
    Mr. Azure. Thank you.
    Senator Conrad. And who is the other gentleman with us?
    Ms. Jones. Dean Webb.
    Mr. Webb. My name is Dean Webb and I am the financial trust 
services officer for the Office of Trust Funds Management in 
Aberdeen.
    Senator Conrad. Okay. The question that I have is, and I 
would pose it to you with respect to both the money that's on 
deposit, the $12 million that, as I read it, has been withdrawn 
to assist in the construction and repair of additional schools, 
what level of detail do you know what that money will be used 
for? Do you know what schools it will be used for? Do you know 
what specific projects?
    Mr. Azure. Other than what was in the resolutions initially 
requesting the dollars, we don't have any more specifics beyond 
that, Senator.
    Senator Conrad. Well, I just say this to you, I don't think 
that's adequate. I really don't think that's adequate. I think 
you should ask for the specifics of how that money is going to 
be used. You are releasing money here, you are in a fiduciary--
you have got a fiduciary responsibility. And, absolutely, it 
should be the tribe's determination as to what the money should 
be requested for, how that money should be used, but you have 
got a responsibility before you release it to know where it is 
going.
    What's wrong with what I am saying? Why aren't you doing it 
that way?
    Mr. Azure. I believe the--personally, I believe the 
legislation is written in such a way that it provides as much 
freedom as possible to the tribe to establish, as you 
indicated, what direction or what purpose these moneys will be 
used for in basically four broad categories, and, of course, 
their plan is written in such a way reflecting the broad nature 
of the legislation, itself.
    Senator Conrad. Well, I wrote the legislation, and I can 
tell you it was never my intention, never, that money would be 
released just based on a resolution saying it's going to be 
used for--the whole reason that we put a reporting requirement 
in and an oversight responsibility in was so that somebody 
would be in a position to be held accountable for the use of 
these funds so that when the tribe made a request, that 
somebody else would look over it and know what the specific 
purposes of the request were. I am saying that to you today. I 
think it is absolutely the responsibility. Frankly, the 
responsibility was given to the Secretary of the Interior. 
That's who was given the responsibility. Now, he has delegated 
that down the chain. I don't quarrel with that.
    But, I mean, if somebody read that legislation carefully, 
there was a reason this was done this way. And it was so that 
when people would go back, there would be no question as to how 
that money was used. And that is critically important to the 
credibility of this whole undertaking.
    So I say to you today, I hope that in the future, and I 
expect in the future, before money is released that it will be 
released in reaction to a specific plan, not just some broad 
category. That's not good enough. You should know if there is 
$12 million that's on deposit for schools, what schools are 
going to get fixed, what construction projects are going to be 
financed, what are the amounts, what are the things that are 
going to be done.
    Mr. Webb, what is your responsibility in this area?
    Mr. Webb. My responsibility is to make sure that all the 
documents are in place, tribal resolutions, signatures, and so 
forth, on the 1034's. I send them to our processing unit in 
Albuquerque for payment of the money and follow through to make 
sure that the funds are disbursed correctly.
    Senator Conrad. Is there any requirement once the money has 
been released as to when it is expended?
    Mr. Webb. No.
    Senator Conrad. So the money that's been drawn down that's 
on deposit to do construction on schools, that could be on 
deposit for 5 years?
    Mr. Webb. Yes; it probably could be, if it's construction 
of facilities.
    Senator Conrad. Well, again, I tell you, I just don't think 
that in any way is in keeping with the intent of the 
legislation. The intent of this legislation is that the tribe 
make the determination as to its needs and how best to use its 
money. After all, this is the Tribe's money now. It's held in a 
Federal account, but it is the Tribe's money. But before that 
money is released, I think you have got an absolute obligation, 
absolute obligation to know where it is going, and not in just 
some general category. That in no way I think meets the 
responsibility that you have.
    All right. Let's go to our next panel. Before we leave 
this, I would ask you this: I am going to take back to my 
colleagues what's happening here. I can tell you they are not 
going to be satisfied with this. This was not the intent. And I 
want to hear from you within 30 days as to how you are going to 
alter how you do this so that you know before money is released 
what this money is going for in specific detail. It is not your 
judgment what they request. That would be micromanagement. That 
would be a violation of self-determination. But you have got an 
obligation to protect the taxpayers. You have got an obligation 
to protect the tribal members that the money is going for the 
purposes intended. And that's just--good fences make good 
neighbors. It has nothing to do with the comment on what the 
Tribe is doing. That's just good management. And I believe you 
have got an affirmative obligation.
    And I am not--I want to make clear, I am not finding fault 
with the tribe. They're going with the plan that is in place 
apparently, but I must say that it's troubling to me that money 
is being released without very specific and clear plans as to 
how it's going to be used.
    Ms. Jones. Senator, I would like to say that we did depend 
on what the tribe sent in, the general plan, and then we 
utilized the resolution as to specifics, and that's what we 
tried to work with. However, I will be happy to ensure that 
that plan is to you within 30 days. And maybe we had a 
misunderstanding of what our responsibility was in this because 
we thought that that money, once it came to the Tribe, it was 
the tribe's money, and so maybe we had a disconnect there, and 
I can assure you from this point on that it will not happen 
again.
    Senator Conrad. Well, I think that's very important. There 
is a disconnect because it is the tribe's money, but there is 
also very, very clear responsibility on the part of the 
Secretary of the Interior to ensure that the money is used for 
the purposes intended. And the only way that can happen is if 
you have the specifics of how the money is going to be used. 
And to me it's not there with what I have heard here this 
morning. Thank you. And I will expect to hear from you within 
30 days on how that plan is up. I hope you will work with the 
tribe as to devising that reporting method so we don't have 
unintended consequences on that side of the ledger.
    Ms. Jones. Yes, sir; and, you know, we did have--we 
followed all the way up to Washington, we had our solicitors 
look at it in Washington, DC.
    Senator Conrad. Is the solicitor a lawyer?
    Ms. Jones. Yes.
    Senator Conrad. There is the problem. We need somebody just 
with some commonsense.
    Ms. Jones. They did approve of the procedures that we had 
in place.
    Senator Conrad. Yes; I know. But I will tell you honestly, 
this would never satisfy my colleagues and it doesn't satisfy 
me and I don't think it would satisfy--just think about it. 
There has got to be sufficient detail so people know where the 
money is going. Okay. Thank you.
    And we will call the second panel. And I thank you very 
much. The second panel is Mary Louise Defender Wilson, Robert 
McLaughlin, Dave Archambault, and Ron McNeil. If you could all 
come to the witness table, I would appreciate it, and we will 
go in order that was determined by the notice for the hearing. 
Mary Louise Defender Wilson will be the first witness on the 
second panel followed by Mr. McLaughlin, Mr. Archambault, and 
Ron McNeil.
    Dave, before I pronounce your name, or perhaps mispronounce 
it again, am I pronouncing it correctly?
    Mr. Archambault. Archambault.
    Senator Conrad. Archambault. I have been pronouncing it for 
years, but maybe I have been pronouncing it wrong for years.
    Mr. Archambault. You have done good.
    Senator Conrad. Welcome. Thanks to all of you for being 
here to testify in what I think is a very important hearing. 
And we will start with you, Mary Louise. Thank you for being 
here and please proceed with your testimony.

            STATEMENT OF MARY LOUISE DEFENDER WILSON

    Ms. Defender Wilson. Thank you very much, Senator Conrad 
and Miss Gross, for coming to Standing Rock Reservation to 
listen to what the people have to say.
    At the beginning, I would like to say this to you, Senator 
Conrad, that, you know, we come from this sparsely populated 
area of the country, North Dakota, and you don't know how good 
it makes me feel when I see you on TV on CNN and talking to all 
these national, international issues with such ability and such 
wisdom that I just want to share that with you. It also does 
the same when I see your other two colleagues, Senators Dorgan 
and Daschle, on TV, because that really is good to see and we 
are really, really proud of you, at least I am, and I know a 
lot of other people are, too.
    Senator Conrad. Thank you.
    Ms. Defender Wilson. Thank you very much. I will not read 
my entire statement because I know some of you have things that 
you want to say that are very important and are probably more 
to the issue what Senator Conrad is trying to find out today.
    But I am back to my original concern, and that is justice 
for the 190 homeowners and landowners who lost land at the time 
of the original construction of the Oahe Dam. You know, our 
people were living the American dream at that time. Owning a 
home, having a small piece of land is something many people of 
this country would probably kill for. I hate to use that word 
because we have so much concern about terrorism today, but 
really they would, and they would lie, cheat and steal to have 
that in their possession.
    Yet many of you who are sitting here in this audience came 
from that kind of a family, a family who lived in their own 
home, lived on their own piece of land, and you lost that. And 
to me that was a terrible tragedy that has not yet been 
addressed. You know, there was never an opportunity for you, 
the descendants now. There are some of the original people who 
lost their land. I see Vernon Iron Cloud who lost his land and 
his home to that in the audience. There was never that 
opportunity for you to purchase land again and also to live in 
your own homes for many of you.
    When I was going to make the statement, I talked to some 
people--not enough of them, but some people and I focused on 
one community which was located south of Cannon Ball. Now, we 
can look at every area along the Missouri River on Standing 
Rock and we will find similar communities which existed. They 
weren't part of the organized district, but they were areas 
where people who were related by blood when they came to the 
reservation. You know, we have this word in our language, 
tiyospye wicozani, people who are of the same group, people who 
are related by blood, they live together.
    And I was talking to one of our knowledgeable elders, Alma 
Ramsey Mentz, who is also in the audience, and she grew up in 
this Big Lake area and she told me who lived in that Big Lake 
community starting at the south end and going north, and I can 
look at that immediately and see that some of these people were 
related by blood. They came from east of the Missouri River and 
they were related to the great chief named Nasuna Tanka. That's 
been mistranslated to Big Head. Nasuna Tanka is a person with a 
big brain because Nasuna Tanka evidently had wisdom. But you 
find several families there who are direct descendants and they 
were all living there together. They all had to move out of 
that area.
    And if you look at the list attached to my statement, only 
Harry Fast Horse was able to buy just a few acres to replace 
what he lost. I think it was six acres that he was allowed to 
buy.
    Now, section 5, you know, of the original Oahe Act set 
aside moneys to help improve the economic and social conditions 
of tribal members and also that there was a land purchase 
program set up which was supposed to help some of these people, 
but that did not happen. And as I said, Big Lake is only one of 
the many others where the people lost everything that they held 
near and dear. We have Black Foot Bottom, we have all kinds of 
communities named on the reservation. Yet that is what 
happened.
    Now, when this Equitable Compensation Act was passed in 
1992, the people knew that the law was enacted because of the 
devastation they suffered when the Oahe Dam was constructed. 
And those people were anticipating that there would be some 
economic recovery for them from this interest money. And I 
think that the people on this reservation were aware of that. 
They knew that the people who lost were looking for something.
    This Tribal Economic Recovery Fund Committee, which is 
called TERF, they considered that there would be compensation 
to the home and landowners, but somehow this whole thing got 
mixed up. It got mixed up with per capita payment. I don't know 
how that happened and I don't know what kind of--I did not see 
the original letter that you wrote, Senator Conrad, about that 
matter. It was told to me by Bob McLaughlin that there was a 
letter to that effect that you couldn't deal with these 
original landowners and homeowners who lost. So every time the 
homeowners and the landowners ask about compensation, they're 
always, you know, faced with, well, Senator Conrad said. Now, I 
don't know what that letter said. We have to trust each other, 
and I trust Bob McLaughlin that there was such a letter that 
said that they could not consider the people who lost their 
land.
    The other thing we have to consider is, we have to help our 
younger people on this reservation who do not know what it is 
like to have been born and live in your own home, on your own 
land, and they have not grown up in homes owned by their 
parents or on estates held by their families since the original 
allotment made in the early 1900's.
    Now, some of these are saying that the landowners should 
have a business plan and not expect to just buy more land and 
lease it out and collect rents. And I think we all know that 
the most influential white people of this country hold 
properties and lands and collect the rents. And many 
inherited--many of those white people inherited those estates 
from their own families.
    Now, why can't our Native Indian people, again, have this 
right to hold property and to collect the rents because they 
have lost that, and I was very happy to see the words used 
about, you know, economic vitality and economic--you know, to 
improve the economic lives. I think that is one thing that 
would.
    Now, there is a lot of things I could say because I lived 
on this reservation until 1955. I heard all of the original 
discussions about the Oahe Dam and Reservoir. But I returned in 
1976, then I realized that for all the hell our people went 
through during that time, they were not compensated to the 
fullest to help them heal. So this is why when these hearings 
were held on this law--we're talking about Public Law 102-575, 
my adopted son, Dr. James Fenelon, and myself worked presented 
it at the hearings, and we did that as volunteers, used our own 
funds because we believed so strongly that the devastation was 
not only economic, but they were something that went to the 
very soul and spirit of our people, so this is why we did that.
    And in closing, I would like to just say this, that the 
United States should decide how it wants to perceive us as 
people. A long time ago when we were in charge, when we were 
truly sovereign, the land was all held in common; but in 1989 
the land was divided and allotted to individuals, and the 
people adjusted to that big change, and they put aside all of 
their laws and customs and practices and traditions about 
communal landownership and we forgot them. So now we rely on 
the BIA to manage our individual lands, and the tribal council 
I think has one heck of a job trying to cope with managing the 
tribal lands. And now then, all of a sudden we are faced with 
another matter. I don't think that the United States wants to 
see us anymore as individual people. So we have to think about 
who are we really, then we have to think about what do we do 
and why has the United States changed its policy at this time? 
And how are we going to protect ourselves, our personal rights 
and our property rights?
    And I want to thank you very much for allowing me to make 
this statement.
    [Prepared statement of Ms. Defender Wilson appears in 
appendix]
    Senator Conrad. Thank you very much.
    Mr. McLaughlin.

                 STATEMENT OF ROBERT McLAUGHLIN

    Mr. Robert McLaughlin. I wish to thank the committee for 
allowing me to testify here this morning on this very important 
issue, the Tribal Economic Recovery Fund.
    I drafted the original report for the tribe, the Economic 
Loss Report, that was reviewed by the JTAC Committee in 1986 
and then by the GAO.
    I was very impressed in your history, Senator. You have a 
grasp of what went on during that process, and I think it's a 
good one. As you know, the resources loss, the wildlife 
resources, the natural resources, the agricultural resources 
that were lost comprise the basis for the argument that I 
developed for the additional economic compensation that 
Congress provided in 1992. So I was going to comment on that, 
but I can move right along because we are running late.
    What I would like to do, the tribe has engaged me to look 
at several areas in the JTAC fund, primarily in the area of 
economic development, and I would like to address those this 
morning.
    The first one is the Standing Rock Business Equity Loan 
Fund which you mentioned earlier. The tribe contracted with me 
in 2001 to develop the policies and procedures, and I am going 
to comment here that I think that these funds should all have 
policies and procedures. I think it's very important that 
regulations and policies and procedures be drawn up so that it 
reduces the tendency to misuse the funds for other purposes.
    And we did that with the equity fund, and it was modeled 
after the highly successful Indian Business Development Grant 
Program, and I'm not so sure you are familiar with it, but in 
1992 I did a study that analyzed all the investments made under 
that BIA program in the Aberdeen Area Office and the BIA, which 
I consider to be the best economic program in the history of 
the BIA, and they had practically a 90 percent success rate for 
investments. That is just unheard of in Indian country.
    Senator Conrad. What was the name of that?
    Mr. Robert McLaughlin. The Indian Business Development 
Grant Program. That was put in place in the late 1970's by the 
BIA. And what it did, it provided much needed equity finance to 
Indian entrepreneurs coupled with debt finance that would be 
provided by outside financial institutions, or if the tribe had 
a financial institution, it could be provided by the tribal 
financial institution, and that put discipline into the due 
diligence process for investment. And that's why I think it was 
real successful, because the entrepreneurs knew they had to 
perform, they had to be real Indian businessmen, and they 
approached the process with a great deal of concern about their 
future and they succeeded, and that's why it had a 90 percent 
success ratio.
    We modeled the tribe's economic program after that 
successful BIA program. And we just--the tribe just started 
this up and they hired me to draft the policies and procedures, 
which I have to say I borrowed heavily from the BIA's policies 
and procedures because they're really excellent policies and 
procedures.
    We did make a couple changes there, and that was to include 
a micro program for equity along with the regular business 
program that could finance projects up to $250,000. The 
gentleman's--on my right--son was the first applicant, David 
Archambault, and he bought a convenience store and he just 
started business now. We have four or five other applicants now 
that are in the process. I think this one is going to require a 
lot more financing from the tribe. It will generate economic 
development here in the future.
    Senator Conrad. Can I just interrupt you on that point?
    Mr. Robert McLaughlin. Yes.
    Senator Conrad. I think this is a very, very important 
point. I look at where the commitments have been made. Land 
purchases, yes, that certainly is worthy; schools, I think we 
all agree that is very, very critical to the community; the 
money to the districts. I would hope that some of that money 
that has gone to the districts would be used for the purpose 
that you have just outlined.
    I have to tell you, and I think you know this, Bob, the 
vision behind this legislation was that this would be an engine 
to revitalize the economy of this area. It was really not 
designed for per capita payments. In fact, they are 
specifically excluded.
    I want people to know here how we got this money. I was 
told when I started down this path there was no way we would 
get this money. You will remember that was the time of 
tremendous budget deficits. There were no new programs. There 
were no new programs being started. So for me to go to my 
colleagues and ask for $250 million for North Dakota, they 
thought I had taken leave of my senses. But I knew that this 
money was owed here. The people were owed this money.
    And the whole idea was that this money--the agreement that 
we made with our colleagues to get the money was that none of 
the money would go for per capita payments, because when you do 
that, the money is here, it's gone and the economy is not 
strengthened; but that the money would go to things that would 
have a longer-term impact, to improve the schools, to get 
people an education and to help people go to college, to help 
people go to community schools, to help people start a 
business. That's really what it was, so that more people would 
get jobs, so that there would be more jobs in the community. 
And certainly buying land, that meets the purpose of the act. 
To rebuild the land base of the tribe, certainly that is a good 
thing.
    But I have to tell you I thought much more of the money 
would go for the purpose that you are talking about now. I say 
that with respect and with hope that in the future more money 
will go for this purpose because I, too, believe it can make a 
tremendous transformational difference in the future of this 
community. So I wanted to lay that out.
    And, Bob, I respect the work that you do, and I can tell 
you we would never have been successful in getting this money 
without the work that you had done on what was lost to this 
community. That work was essential in the case I made to my 
colleagues as to why we should get this money.
    Mr. Robert McLaughlin. Thank you, Senator. The fund is also 
doing something that I think is pretty exciting with the help--
the potential help of the United States, and that is to set up 
a national bank here. The equity committee applied, with 
Standing Rock endorsement, to the Treasury Department to seek 
technical assistance to establish a national bank. What that 
would do, of course, is permit a depository institution to 
operate here in Indian country that has long needed that kind 
of institution.
    Previously I have advocated for the development finance to 
come before the bank, but the demand has grown so absolutely 
for a commercial financial institution because of the 
population growth and the growth now of cash and the need for 
depositing and the need for investment that the committee 
decided to move forward. And that application is underway. 
Hopefully, the tribe will be considered favorably for that.
    The bank would not get started immediately, of course, 
because it would have to be designed and then it would have to 
go through Office of the Comptroller of the Currancy [OCC] 
approval, and that would take several years, but it would 
require a substantial contribution and equity from the Tribe 
that would be matched by the Treasury Department. Once it got 
started, it would probably have around $21 million in assets, 
be a substantial institution, I think given the market 
conditions out here, would grow very rapidly.
    The third area, and this is important--I am glad to see 
there is a representative from the Bureau's Office of Trust 
Fund Management here, is that the tribe has this endowment 
that's being managed by the Government, and I understand 
talking with the Office Trust Fund personnel in Albuquerque, 
that it's pretty much going to stay there. It is a secretarial 
fund set up by the Congress, by the Senate and the House and 
made into law. Therefore, I think it's really important that 
the tribe request the committee that adequate investment 
mechanisms be applied here, and I'm talking about direct asset 
management.
    I would like to talk about a trust fund that we had managed 
by the Government since 1959. This fund has declined enormously 
in real value. It started out as about a $1.5 million fund and 
today it's only worth 17 percent of that amount of money. And 
the reason being that this decline has taken place is that the 
Government mandates that the OTFM only invest in fixed-income 
securities, and if you know what that does to a portfolio, it 
will erode it over time.
    South Dakota had one just like that and they made a 
constitutional provision just last year that prevented that 
fund from disappearing. Our education fund under those same 
type of restrictions will disappear. And although we had a 
pretty good couple years because of the decline in the 
marketplace with regard to equities and the improvement in bond 
returns.
    And I think the Office of Trust Fund Management is doing a 
fairly reasonable job because our fund is a little different 
from other funds in that they can invest in overnight 
treasuries and they can invest in agency securities, so there 
is a little bit higher rate of return.
    But this JTAC fund is heading for the same fate as our 
education fund. So we need to manage this like the State of 
South Dakota, the State of North Dakota, which does a 
tremendously good job in talking with Steve Cochran over at the 
securities office here. We need to manage this fund so we can 
at least grow at about 4 or 5 percent above the rate of 
inflation so that we can have a distribution, and then in our 
fund allocation that the tribe passed, the distribution plan is 
also to provide for growing of funds, so in the future it will 
really be worth maybe $180 million instead of $90 million. 
That's what's happened with the State of North Dakota 
investment fund. So we should be able to at least do that well. 
So I am going to recommend to the tribe that they talk to you 
to advance that in the future.
    The last--and this answers one of your questions. The last 
area that I want to address here is the Fort Yates local 
district, and they have taken it upon themselves, Terry Yellow 
Fat, the planning commission there, to advocate for a 
development finance institution, which I think would work 
really nicely with the equity fund. But it would be a finance 
company. It would have to be carefully managed, of course. It 
would have to do some hedging, which we're all worried about 
these days, you know, the risk management. I think they can 
pull it off, and that would greatly add to the economic 
development of the Tribe, plus it would be able to use and 
leverage outside capital.
    So that, Senator, concludes my comments this morning. I 
have given you a very lengthy written testimony which I hope 
you put in the record.
    [Prepared statement of Robert McLaughlin appears in 
appendix.]
    Senator Conrad. I will put it in the record. Let me just 
say that I think one of the things we might need to think about 
is, and this would have to be thought through very carefully, 
but I think we should consider taking the income stream that 
comes from the JTAC fund and using that money to float a bond 
and get that money--we could then get in one lump sum probably 
$50 million, $60 million, and then invest that money in higher 
rate-of-return assets. You know what I'm saying?
    Mr. Robert McLaughlin. Yes.
    Senator Conrad. It may be the only opportunity we have to 
prevent the diminishment of this fund in real terms over time, 
because right now we are in a circumstance in which we are 
locked into Government securities. That is in effect the 
investment income that flows from the $90 million. The only way 
that I know of that we could escape that fate is to take the 
income stream from this trust fund account and float a bond, 
sell bonds to the investment community backed up by that stream 
of income and get a pool of money, and it would probably be in 
the range of $60 million, that could then be invested in higher 
rate-of-return assets. I think we have got to very carefully 
consider that.
    Mr. Robert McLaughlin. Senator, I really urge--I think 
these are the recommendations that we will be bringing to you. 
We must do something or this fund will go away in 20 years.
    Senator Conrad. That's why I think we need to think very 
carefully. One of the reasons I wanted to come here today is to 
get us thinking about the various options we have. And that's 
one that's got to be very closely and carefully considered.
    Mr. Robert McLaughlin. I will take that up with--the tribe 
just recently established an investment committee. I will take 
that up right away, Senator, with the committee.
    Senator Conrad. I would appreciate that.
    Mr. Archambault.

                 STATEMENT OF DAVE ARCHAMBAULT

    Mr. Archambault. Good morning, Senator.
    Senator Conrad. Good morning, Dave.
    Mr. Archambault. I want to thank whoever it was that 
allowed me some time to speak. I would like to say that I am 
probably going to say a lot of the same things that Bob did, 
Mr. McLaughlin here, because I think that's kind of the way it 
goes, but I'm probably going to say it in a little different 
way--or a whole lot different way.
    And I am real happy to see that we have students every now 
and then drifting in and sitting down seeing this hearing. I 
think it's a real--could be a real learning experience. But I 
guess this message that I have is maybe as much for them as for 
the people sitting here, and I think we have KLND, also, as 
well, that it's on air, and I think my message is bent toward 
that, as well as toward the hearing.
    As you may recall, Senator, I drafted the first overall 
plan for use of JTAC funding in 1993. At the time I was 
president of Sitting Bull College and later was a tribal 
councilman, and I did submit a copy for your review. Recently I 
have been assisting in the effort to put together an oversight 
office for an administrative structure to handle the day-to-day 
affairs of the JTAC funding.
    Senator I do have definite ideas that I envision for the 
use of JTAC interest earnings and I wish to convey this message 
to you and everyone listening.
    I would like to start by telling a story that was told to 
several of us on the Pine Ridge Reservation in the 1960's. The 
story was told by Edward Iron Cloud, who was born on the 
Standing Rock Sioux Reservation, but believe it or not, he was 
born on the Cannonball River before there ever was a 
reservation. Edward was 97 years old when he died. I am told he 
was both Oglala and Hunkpapa Lakota. What I read next is a 
Lakota story about starvation.
    There is a Lakota story about a village that was starving. 
This occurrence was not uncommon to the Great Sioux Nation or 
to any other people of the world. In this one particular story, 
the people were experiencing an unusually hard winter, the snow 
was deep and recently a storm had raged for almost 1 week. The 
village had consumed almost all their food. Everyone was very 
weak from hunger. The situation was so bad that death songs 
could be heard now and then.
    The headmen and some of the elders that could make it met 
to discuss what should be done. We had to get what food that is 
left and feed the sick and dying, is what some were saying. We 
need to see that at least the children and the elderly are fed 
was said by others. It was a very difficult meeting because 
everyone was personally experiencing misery within their own 
family lodges.
    One of the older men in the group gestured for his request 
to speak. When it was his turn, he started out by saying, my 
wife and I were lying under our robes this morning talking. We 
heard the people suffering, my daughter's baby cried all night. 
Everyone here is being pressed to help the needy right away. 
The hunger is causing us to think selfishly and behave ugly to 
one another. We are not thinking clearly. He looked around at 
everyone seated there and asked, who is the most needy? There 
was a long pause and then he went on, this morning my wife 
said, our problem is strength. We need strength if we are to 
survive. If we don't have food soon, we will lose all our 
strength and we will waste away.
    Everyone shook their head in agreement, then he went on, 
should we be arguing over who is most deserving of the food, or 
should we be thinking about what is best for our people 
tomorrow and the days after that? He paused for a long while 
and said, I know it is hard and some would think that it is 
cruel for me to say this, but my suggestion at this time--
important time is to gather all the food we can and give it to 
our best hunters, feed them good, pray with them and then send 
them out with all of the provisions that we can gather.
    He waited, not sure of the reaction, then went on, we all 
know it's very hard to move in the deep snow. It takes a lot of 
strength. We also know if the hunters we send out are 
successful, they will need twice as much strength to bring the 
food back. Right now our people see no tomorrow, only pain. We 
have to give the village something to hope for.
    When he was done speaking, the leaders left and immediately 
started asking everybody in the village for what food they had 
left.
    This again was told by Edward Iron Cloud. He was born in 
about 1876 and he passed away in approximately 1973.
    Senator today the people of Standing Rock Sioux Tribe are 
looking at another survival issue just as the people did in 
this story. Although the people are not starving, our people 
are in a bad way. The difference is the timeframe has been 
moved forward 150 years.
    Today the people and the leaders are arguing about JTAC. 
JTAC is like the food that is talked about in the story. Many 
people want the food and money right away to fix hunger or 
problems of their own communities. The question is, who is most 
deserving when everyone is in need? Which lodge or community 
should get more?
    But what of tomorrow? JTAC should be looked at as the food 
and strength for a better tomorrow. Use JTAC for present-day 
needs and satisfaction, and tomorrow the same problems of 
poverty and turmoil will be knocking on the door again.
    I believe JTAC presents the opportunity to invest in our 
own strongest asset, which I believe is our own human or tribal 
ingenuity. Like in the story where the people put their faith 
and hope in the hunters, I believe the way to overcome the 
terrible social ills that threaten our culture is to invest in 
our own people. Of course, today is somewhat different, so 
today we need a new kind of hunter. I believe that if we ask 
our people to come forward with ideas and plans that focus on 
future economic recovery, our tribal members will come forward 
and they will effect positive change in this place we call 
home.
    As an example of how we can invest in our own human natural 
resource, please consider the mission statement of the American 
Indian Business Leaders.

    The loss of a national treasury and heritage is at hand. 
The beautiful customs, traditions and values of American Indian 
people could be but pages in history books by the end of the 
21st Century. The economic viability of indigenous people will 
determine this fate.

    The American Indian Business Leaders is an organization 
that recognizes this dilemma and faces the challenge by placing 
seeds of self-sufficiency and culturally appropriate economic 
development in youth and students, thereby sparking their own 
creativity and resourcefulness to address the future well-being 
of their own people and, most importantly, AIBL offers a 
concrete vision of something to hope for.
    By investing in educational programs such as AIBL and 
others, in the long run, eventually we can develop a new 
modern-day hunter, one that provides for the people in a 
dynamic cultural way. Therefore, we should invest heavily in 
educational or entrepreneurial activities that pull, assist, 
and reward those learners, young and old, who are so inclined 
and want to help solve the tribe's problem of unemployment.
    We should also invest in a lot of research and planning so 
that good ideas and plans have the best chance of succeeding. 
We need to be patient and plan and plan and then plan some 
more. We on this reservation are facing no quick fix or 
solution. It will take a long time, so we need to constantly be 
thinking of the seventh generation, not of our own immediate 
good. We need to understand that there is more hard times 
ahead, but gradually as our new hunters come into being, they 
will alleviate our present-day existence and our people will 
again enjoy a healthy lifestyle.
    JTAC funding should be used to lure our people into 
concentrating and attacking the joblessness issue. Those who 
can create jobs for themselves and others should be rewarded as 
a priority; 80 percent of the adults on this reservation are 
without work. Welfare is eating away at our self-dignity. We 
should not be worrying about how much I or we can get of this 
JTAC money, rather, what can I or we do to create jobs.
    We should consider the following possible initiatives. I 
have listed 22 options here, different things that are 
possibilities that I think about that could be done by us. I 
look into this room and I see the students and I see anybody in 
this room that should be able to have a shot at some money 
with, and just as Bob said, and I think it was mentioned 
before, some due diligence, that they put together a business 
plan and be required to give it good so it has the best chance 
of succeeding. I think if you did that, the money was there, 
you would see our people coming forward.
    There was a program on TV, I think Bill Moyer had it, it 
was one of the network correspondents, but he's talking about 
Muncie, IN. Maybe some of you saw it. It's called Middle Town 
and it was talking about typical America, Muncie, IN. He was 
talking about what that town went through, and at first it 
was--the people survived in there by these big plants that were 
there and now it's completely changed. The people are 
supporting one another with a lot of small business activities.
    And I see that. I see that as a possibility for our tribe. 
I see everybody in this room and everybody should have a chance 
at least to take these businesses and we start them up, we work 
at them, make them successful, do the best we can with them, 
then that money stays here.
    The bank proposition, I have been pushing that for a long 
time. We need to keep that money here, the $35 million the 
tribe has annually, and more, the college has money, this 
school has money, the IHS has money, and we should be thinking 
about how we can help one another.
    So that's the list. I have got down here pheasant farm. I 
think we have Bob Molash over here who is thinking about that. 
Gee, I just see there is things that we could do, recreational 
activities. There's all kinds of stuff that we could do with 
that river out there, but we just need to lure or help our 
people say that here is a pot of money. I think we've only 
got--far too little money has been allocated right now, I mean 
way too far. We need a lot more pull for our people with a lot 
more possibility of getting this and applying for it.
    I have said the list of possibilities that I just read are 
but a few ideas that can become a reality. In my opinion, we 
must do everything we can to encourage the spirit of 
resourcefulness and do everything we can to empower a host of 
creative problem solvers with JTAC funding. Just as in the 
story, we should endeavor to strengthen those that can give our 
tribe the best chance of surviving. I do believe that this 
direction offers our people the best hope to constructively 
exist in the future.
    To conclude my comments, Senator, I would strongly 
recommend that the Senator stick to his stated commitment of 
economic recovery. I believe there is a lot of cultural wisdom, 
such as the story I just shared, which supports such a position 
and, consequently, backs your stance to appropriately use the 
JTAC interest earnings.
    Thank you for allowing me to give this testimony. Thank 
you.
    [Prepared statement of Mr. Archambault appears in 
appendix.]
    Senator Conrad. Thank you very much. And now to Ron McNeil. 
Welcome, Ron. It's good to have you here. Why don't you proceed 
with your testimony.

    STATEMENT OF RON McNEIL, PRESIDENT, SITTING BULL COLLEGE

    Mr. McNeil. Thank you, Senator Conrad. Welcome to the 
Standing Rock Sioux Tribe. We are pleased to have you here 
today. I wanted to thank you, as well as the chairman, Senator 
Inouye, for allowing me to testify before the Senate Committee 
on Indian Affairs today.
    For the record, my name is Ron McNeil. I am the president 
of Sitting Bull College. I am an enrolled member of the 
Standing Rock Sioux Tribe. My testimony today is going to cover 
primarily two issues which I have been asked to cover today on 
JTAC, and that is the planning process and compliance with the 
Act, as well as implementation of the fund.
    To start with, the planning process--I guess I should back 
up. One point, Senator, is that I am a lawyer, but I don't 
practice law so I haven't lost all my common sense yet, 
although some people have accused me of that.
    In terms of the process, Senator, I think it was a--as the 
chairman had mentioned in his testimony, it was a learning 
process for us. We weren't given any guidance by anybody in 
terms of how the planning process should look. And in and of 
itself that sometimes created a stumbling block, but I think it 
was a good lesson for us to learn; that is, that it's better 
for us to create our own process as opposed to having one 
dictated to us. And I don't think there is going to be any 
planning process that ever works for all tribes. Each tribe is, 
as we have always said, sovereign, each of them have their own 
rules on how they govern themselves, their own customs and 
traditions, et cetera, et cetera. So there's not going to ever 
be one planning process that's going to be good and cover all 
tribes in this situation.
    Be that as it was, it was a difficult process for us 
because we did have to live by two requirements of the law, and 
that is specifically section 35-04, which designated the funds 
for four specific purposes; that is, education, social welfare, 
economic development, and other programs. What the idea was is 
that they would assist at least in the economic development and 
social welfare and education of this tribe.
    I think that the categories that were set up, the six 
categories that were finalized by this Tribe, do meet the 
requirements of section 35-04. None of them fall outside of 
that.
    The other requirement that we were very--that was very hard 
for us to meet simply because a lot of the people on this 
reservation still grieve over losing the land, and that is 
section 35-06 which said no capita payments. We did have a lot 
of discussion on that on this Tribe. The discussion even 
continues today. And it's not always understood by the members 
of the tribe that this money was meant purely as an economic 
recovery tool, not to equitably compensate the original 
landowners who lost that land. That, I believe, is a different 
subject not covered by this particular legislation.
    And, again, it was hard for us to get around that. Every 
time we went out to the districts for comments, there were a 
number of different committees that did go out there to seek 
input from the districts, and continually were faced with the 
idea of somehow compensating the original landowners. I believe 
that's one of the reasons why Kenel was one of the first 
jurisdictions to receive funding under the access plan because 
their district was impacted the most out of any of the river 
districts.
    Be that as it may, the idea that--it was again a lengthy 
process. We had to deal with the idea of the per capita 
payments. We did get around that. I don't think everyone 
understands that. There were six categories that were set up. 
With the idea that it was quite a lengthy process and there was 
a lot of input from both grassroots people in the community, as 
well as the tribal government, as well as some of the 
institutions, Sitting Bull College being included, that we were 
able to create, if you will, this access plan which set up 
those six categories.
    It comes to the implementation actually of that access plan 
where I think that we start to run into some difficulties. In 
the implementation of it, as I read from the chairman's 
statement, he talks about three categories that have been 
funded of the six categories, that being the economic fund, the 
money had been spent there; the community economic development 
fund, the money was spent there; and the resource development 
land acquisition, the money was spent there, as well.
    And we had listened to the testimony in terms of the 
amounts of millions of dollars that has been drawn down 
primarily for those three categories. Some of it is spent, not 
all of it at this point in time has.
    I don't think--in defense of the tribe, I don't think that 
the tribe in spending in those three categories went outside 
the spirit of the law or the intent of the law. That is they 
did stay within the educational category, the idea that this 
was for economic development. None of it did go into any 
individual's pockets that I am aware of. Again, they didn't 
violate the spirit or the intent of the law, but where I think 
the problem occurs is that, and you mentioned it, there needs 
to be some accountability, accountability not only in terms of 
how the money is actually spent, but I think accountability in 
terms of creating plans prior to the time the money has 
actually been disbursed.
    The access plan as approved, and, again, with input from a 
lot of people in this tribe, spells out a lot of the 
requirements that should be looked for in terms of how you 
access the funds, what it's used for. Specifically, there are 
some requirements that are in there that haven't been met at 
all and I think are going--if they were, would lend to the idea 
of a good planning process for this tribe.
    Each fund is supposed to establish--or the tribe, itself--
excuse me--is supposed to establish and allocate to each one of 
those funds a set amount each year. The tribe has failed to do 
that. Because it's failed to allocate said amounts to those 
different funds--and the amount that they put in those can 
change depending on how the tribe prioritizes each of those 
categories. That's the tribe's wish, but I would hope that they 
would at least inform the public of the plan that they have put 
in place of the amounts allocated on a yearly basis. The plan 
calls for that and I think that's a simple requirement of 
sitting down and budgeting the money that you have so far 
allocated and what you anticipate for next year.
    I think Mr. Archambault has worked on a similar-type 
concept that is basically a budgeting plan for each of those 
categories. It hasn't been done, so nobody knows how much is 
allocated to land purchase, nobody knows in this tribe how much 
money is going to education until after the money has actually 
been drawn down. Prior to that nobody is really aware of how 
much money is supposed to be put in any of those categories 
because there has been no allocation. That's one problem I see, 
is that allocation is begun each year in those categories.
    One of the other problems I see with it is that there are 
supposed to be fund administrators for each of those funds. 
After the money is allocated to those funds, the fund 
administrator then is supposed to put in place an application 
process whereby people who fit within those categories, whether 
it be a district or whether it be a school or whether it be an 
individual, knows what the application process is. At this 
point in time there is no application process. Part of that 
application process requires that the entity seeking funding, 
whether it be Sitting Bull College asking for $4 million, that 
we need to show the fund administrator, the tribe, how our 
request fits into a long-range strategic plan for the 
institution. If it's the district, the district needs to put 
forward a long-range district plan on what it plans to see, not 
only for this year, but for years down the road and how much 
money it intends to encumber or needs to fulfill its plan over 
the years that allows for the budgeting process.
    Those are basic tenets and they are laid out in the access 
plan that has been submitted by the tribe to the BIA. However, 
those things, those requirements haven't been met. And I think 
that, again, the tribe hasn't violated the spirit of the law in 
terms of where it spent the money. I think that it makes for 
much better fund accounting, it makes for better strategic 
planning for this whole tribe if those basic tenets that are 
laid out in that plan are actually followed.
    Now, I'm not going to fault the BIA at this point in time 
for saying that they didn't know what to look for. That, yes, 
there is this idea that the tribe is sovereign and should be 
able to utilize the funds in a manner which it sees consistent 
with this act. However, when the Tribe created this plan--it 
wasn't the BIA that created the plan, it was the tribe that 
created the plan. In doing so, the tribe should simply follow 
the procedures that it sets forth in the access plan, itself.
    Now, the tribe hasn't done that in the past. It has, I 
think, learned a valuable lesson in terms of, and I mentioned 
that in my testimony, and that is that when you start 
allocating funds, giving funds out without strategic plans, 
without sending in an overall budgeting, you're going to get a 
run from every institution or individual in the community that 
can get its hands on the money.
    I think the tribe experienced that run when it gave money 
to one district and the rest wanted the same amount. You gave 
to one educational institution, Sitting Bull College was the 
next in line, we stood in line for $4 million, and after that--
so every other school on this reservation stood in line for 
money. And so you've got another $12 million which has been 
drawn down for schools, but hasn't been given out.
    The tribe has learned a lesson, I think, and that is that 
it's asking for the schools, it's asking for the districts to 
submit strategic plans. It is going back to utilizing the 
process laid out in the JTAC access plan, but I think there 
needs to be some monitoring by the Bureau of Indian Affairs to 
see that in fact the requirements that the tribe put out for 
itself is being followed by the tribe. It does lead then to 
strategic planning, long-range planning for the institutions, 
for the districts and for the individuals on this reservation 
to know where the money is going to be spent not only today, 
but tomorrow, and what are the priorities of the tribe.
    Senator Conrad. Thank you very much. Ron, let me ask you, 
$4 million has been allocated to the college. Has that money 
been expended?
    Mr. McNeil. No; it hasn't, Senator. To date I know the 
figures have changed slightly. We have accumulated--that money 
is put in an account in Bismarck for this college. Today we 
have accumulated approximately $150,000, a little over that, 
maybe $160,000 worth of interest income on it.
    What we have spent to date is approximately $450,000. What 
that has been spent on so far is approximately $360,000 has 
been spent on architectural fees. Another approximately $89,000 
to $90,000 has been used to fund the cultural center which is 
currently out there. So--excuse me. It was $360,000 for the 
architectural fees and approximately $90,000 for the cultural. 
We have spent about $450,000. Adding $150,000 on top of $4 
million and then reducing that by the $4.5--$450,000 we spent, 
we currently have $3.7 million remaining.
    Senator Conrad. What have the architecture fees been spent 
on?
    Mr. McNeil. Drafting--a number of things. One is--the 
architectural fees include testing of the soil to make sure 
that it can support buildings, the surveying of the property to 
make sure that we actually got our boundaries in place, the 
actual drawing now of a science laboratory, which will be one-
quarter of the science classes and administrative building. 
It's actually about a $40 million project that we have got 
planned right now. So the tribe's contribution represents 10 
percent of that $40 million campus.
    Senator Conrad. Thank you very much for that. You're 
talking about a $40 million long-term plan?
    Mr. McNeil. Yes.
    Senator Conrad. Let me just say, and this is hard to say, 
but it's the truth, and it needs to be known. This legislation 
was passed on the idea that it would provide an economic 
recovery fund to the entire Tribe, that the entire Tribe was 
hurt by what occurred. This was not intended, and specifically 
it was precluded by our colleagues--and let me just say that 
the tribal leadership at the time was absolutely involved in 
these decisions. This wasn't Kent Conrad just making a 
decision. It didn't work that way. This was consultation with 
the tribal council, the tribal chairman in terms of the 
negotiation with our colleagues to get this money passed. And 
we were specifically precluded--the only way we could get this 
money was to make the commitment that it would not go out in 
per capita payments.
    Now, why did our colleagues insist on that? They insisted 
on it because even though there's desperate need, if you put 
the money out in for the future. We haven't built a stronger 
base. We haven't built jobs. We haven't built opportunity. We 
haven't improved the long-term condition of the tribe and its 
members. That's why they insisted on that condition. And we 
agreed to it. Let's be absolutely clear and honest with each 
other, we agreed to that condition. I agreed to it. The tribal 
leadership agreed to it. That's a fact. And so that's where we 
are today.
    The idea was an economic recovery fund. Yes, invest in our 
people. Invest in education so they have a better future. 
Invest in jobs so they have an opportunity to get a job and to 
make money. Yes, buy land to restore the land base. All of 
those things were contemplated. Yes, have things that could 
help people with immediate needs such as medical. If there was 
a medical situation or some special need, that's provided for.
    And the idea for those who suffered the most, those who had 
their lands taken, that that should be part of a consideration 
on their trying to get money to go to college or that they are 
trying to get started in a business, that that would be one 
part of the consideration of how the funds would be used to 
build the economic base of the community. That was all part of 
the agreement.
    So I wanted to say that. That is what happened. That's how 
it came about. And we have got an obligation to try to the best 
of our ability to carry out the intentions of the program. And 
the intentions are good intentions. The intention is to use 
this money so that five years from now we come back and 1 year 
from now and 2 years from now things are better here, the 
people have a better future. And I think these witnesses have 
done an excellent job in outlining that here today. I thank you 
for that.
    I thank each of the witnesses for your participation here 
today. Your full statements will be made part of the record.
    Now I am going to open it to people in the audience who 
might want to say something. If you would just go to the 
microphones--anybody who would like to make a statement go to 
the microphones and line up there so you have a chance to be 
heard. My intention would be--we have got a real time crunch 
here, but we are going to take 15 minutes to get statements. We 
probably won't be able to hear from everybody who would like to 
make a statement. I would say this to you. We will go back and 
forth. We will start on this microphone to my left, then we 
will come over to this microphone. We will go back and forth. 
We will give everybody 1 minute, 1 minute. That's the only way 
we can do it fairly. So if you have got more than 1 minute, 
think quickly about how you reduce the length so that we can 
give as many people a chance to make a statement here as 
possible.
    Let me just say that when you begin, if you would give your 
name and spell it for the stenographer, that would help her. 
And we will start to my left. Yes, sir.

 STATEMENT OF TERRENCE YELLOW FAT, CHAIRMAN, FORT YATES LOCAL 
                            DISTRICT

    Mr. Yellow Fat. Thank you, Senator. My name is Terrence 
Yellow Fat, T-e-r-r-e-n-c-e Y-e-l-l-o-w F-a-t. I'm chairman of 
the Fort Yates local district.
    I will submit the full text----
    Senator Conrad. Just withhold for a minute. We would ask 
people to refrain from conversation so that we can hear the 
witnesses. Please proceed.
    Mr. Yellow Fat. Thank you. A quick overview, Senator. I 
would like to quote from the Congressional Research Service, 
Library of Congress in correspondence to the Honorable Senator 
Dorgan dated September 8, 1998, relative to the use of the 
funds under Three Affiliated Tribes and Standing Rock Sioux 
Tribe Equitable Compensation Program. I quote:

    Currently, there are no Department of the Interior 
implementing regulations to provide the tribes with procedures 
and standards in making requests for expenditures from the 
Funds. There is scant legislative history.

    Next, the Congressional Research Service indicates that if 
one of the tribes establishes a program to improve the 
education, social welfare, or economic development of tribal 
members and sets criteria for eligibility for financial 
assistance or grants, nothing in the statute would bar the 
Secretary of the Interior from approving a request by a tribe 
to fund such a program despite the fact that the program would 
eventually result in payments to individuals. In proposing such 
programs, the tribes would be advised to draft eligibility 
standards to identify recipients and set up procedures to 
screen applicants and oversee management and disbursements, 
rather than submitting prescreened lists of tribal members.
    And basically our local district has been blamed for 
proposing a per capita payment, and actually we are trying to 
use this criteria here to assist the residents of Fort Yates 
local district.
    I will end my comments there. The full text will be 
submitted.
    [Prepared statement of Mr. Yellow Fat appears in appendix.]
    Senator Conrad. I appreciate that. Let me just say this to 
you very directly. That may be the Congressional Research 
Service. I was there. I wrote this law. I got it passed. I had 
to negotiate with my colleagues to get it passed. There is 
absolutely no question that the commitments were made not to 
make per capita payments. That does not mean you can't help 
people go to school, you can't help people do other things, you 
can't loan money to them to start a business. You can do all of 
those things. But you can't just make per capita payments. That 
was a very clear commitment that was made.
    Mr. Yellow Fat. And we are not proposing that.
    Senator Conrad. Okay. I appreciate that. Yes, sir. We'll 
come to this side, and if you would give your name for the 
record and spell your name to help our stenographer.

 STATEMENT OF CEDRIC GOOD HOUSE, VICE CHAIRMAN, EXECUTIVE JTAC 
                           COMMISSION

    Mr. Good House. My name is Cedric Good House, C-e-d-r-i-c 
G-o-o-d H-o-u-s-e. And I am a member of the Fort Yates 
community. I'm also vice chairman of the Executive JTAC 
Commission. The Executive JTAC Commission is members of each 
community elected by their communities, and it's a commission 
established by the tribal ordinance that we develop and the 
tribal council pass.
    What is significant here, Senator, is that in our 
development of the ordinance, we proposed an administrative 
structure to be put in place to manage and administer the funds 
outside of tribal government, a non-political, unbiased 
administrative structure so that what you are talking about 
helping people recover economically can be done free of 
politics.
    To date--and I just want to--and I will be submitting 
additional documentation to support our claim for that it needs 
to be administered outside of tribal government, not outside of 
the government of the tribe, but outside
    It's the same thing that you use when you make allocations 
at the Senate level. You give money to different departments, 
like the Interior Department. They in turn make money available 
to different park people, and communities and tribal 
governments apply for that money with appropriate data. That's 
not done here. Whoever you're in favor with with council, 
that's--you know, whenever--and a lot of the allocations were 
done not without data, and I think that to date things have 
been pretty nice as to how this has been done.
    I want to use one example that you raised some questions 
about, and that concerns the $12 million that was told to you 
that's been deposited in the bank of Wells Fargo--Wells Fargo 
Bank in Mobridge. That resolution that authorized that draw-
down, that resolution was rescinded, so there is no $12 million 
for going to those schools that you might think. It's just 
sitting in the bank at the discretion of the tribal 
administration. And without a resolution, that money--$7.4 
million plus of that money was used to--was encumbered to 
collateral for cosigned loans prior to the election of 2001.
    And there is a great deal of concern over that. It was 
brought to our attention as the Executive JTAC Commission 
because we were advocating that there be an oversight office 
for management and accountability of these funds and this is 
where we started trying to rectify that problem. We wanted to 
have the plan suspended, rewrite the plan so that we can--so 
things can be followed. We wanted to have policies and 
procedures initiated, because the policies and procedures 
portion of the plan that was approved by the BIA, there have 
been no policies and procedures ever established. The BIA in 
turn, they say they submitted resolutions for draw-down. There 
is a reg that states that there is--the membership of the tribe 
needs to be notified of the intent of the draw-down, of the 
intent. And prior to that, prior to any draw-down there has 
never been any sort of public hearing. We tried to rectify that 
by writing it into the ordinance.
    Senator Conrad. Let me interrupt you and ask you----
    Mr. Good House. Sure. Please.
    Senator Conrad. [continuing]. Something about something you 
have said.
    Mr. Good House. Sure.
    Senator Conrad. What I hear you saying, correct me if I 
have heard you incorrectly, is that the $12 million that was 
drawn down for school repair and construction is in an account, 
that some portion of that has been encumbered for loans to 
individuals?
    Mr. Good House. Yes; that's right. $7.4 million of it. And 
it's also in banks, different banks across the country, from 
Austin, Texas, to Minneapolis, to various other banks 
surrounding this area in North and South Dakota, Montana, and, 
you know, outside--further outside.
    And I believe there is a definition that you put into the 
legislation that talks of Standing Rock Sioux Tribe and what 
that means, and the definition of that means for residents of 
the Great Sioux Nation residing on the Standing Rock 
Reservation.
    Senator Conrad. That's exactly right, it is for Standing 
Rock. Well, that's a real concern. If the money has been drawn 
down for one purpose and used for another purpose, that's 
exactly why we are having this hearing today, to find out how 
the funds have been used. And if money was drawn down for 
school construction and used as collateral for loans to 
individuals, then that presents a very serious problem.
    Mr. Good House. You know, Senator Conrad, the tribal 
government was petitioned--when the loan program was closed, 
the tribal government was petitioned by membership to utilize 
$5.5 million for a lending program. The BIA returned that 
resolution back to the tribe saying which fund did it come out 
of? That resolution was never justified to the request of the 
BIA. Instead, they just let it go. And yet at the same--without 
an authorizing mechanism or authority or resolution, they 
encumbered--the administration encumbered $7.4 million of that 
$12 million that was sitting in a bank. There are regulations 
of the Office of Trust Management that allow the tribe to 
return money back to the U.S. Treasury and the resolution that 
rescinded that, and I have the minutes and will be submitting 
that to your office.
    Senator Conrad. Will you submit that for the record, 
please?
    Mr. Good House. Yes; and in that resolution it admits that 
we did not follow the plan, the tribal government.
    Senator Conrad. All right. Thank you very much.
    Mr. Good House. Thank you.
    [Prepared statement of Mr. Good House appears in appendix.]
    Senator Conrad. Yes, sir.

                STATEMENT OF MANAJAUNJINCA HILL

    Mr. Hill. Thank you, Senator Conrad. My name is 
Manajaunjinca, M-a-n-a-j-a-u-n-j-i-n-c-a, Hill, H-i-l-l, 
descendent of John Taggert. My mom was Rose--my grandma was 
Rose Taggert, so I am a direct descendent of the people who 
lost land out there.
    I would just like to say thank you for making one comment, 
and that was that landowners or people who actually lost lands 
can be given a preference in these millions of dollars. I think 
that has been overlooked so often so many times. I appreciate 
you saying that and it being on the record that maybe the tribe 
will look at us as landowners who lost and give us some type of 
preference. Thank you.
    Senator Conrad. Next.

STATEMENT OF PETE RED TOMAHAWK, CHAIRMAN, CANNON BALL COMMUNITY

    Mr. Red Tomahawk. Thank you, Senator Conrad. My name is 
Pete Red Tomahawk. I am the district chairman for the Cannon 
Ball community. And also I sit as one of four national cochairs 
for negotiated rulemaking committee. And it's a privilege and 
an honor to represent the Standing Rock Sioux Tribe in this 
capacity.
    But my concern, Senator Conrad, is that we are one of the 
communities that is adjacent to the Missouri River. Our 
community was relocated--97 percent of our community has been 
relocated on top of the hill. On top of the hill where our 
community now sits, it faces the harsh climate of the winter, 
of the elements that come and whipping at our housing, but yet 
at the same time we still have a dire shortage of housing that 
was shared with our people back then. You know, what is your 
need? You know, where are the grandchildren of our grandparents 
that are finally seeing the reality of the JTAC dollars that 
become a reality? Our grandparents and our parents have not 
seen that. But yet, most importantly, now as grandchildren we 
see what our grandfathers--our parents have said was that it's 
not what I want. It's for my grandchildren that are going to be 
here for tomorrow. So I am looking at that.
    We have a dire shortage of housing. We have a very serious 
problem with our youth in looking at youth suicides. We are in 
a crisis even as we speak, Senator Conrad, and looking at even 
as late as last night, I was informed of a young man that was 
going to try to commit suicide.
    What we did as a community, we established a zero tolerance 
looking at alcohol, drugs and youth violence. But what it stems 
from is alcohol. We have this resolution on file that was 
approved by the tribal council and we have just recently had a 
liquor license passed for our communities to look at the 
problem--the stem of all of these problems. So this is a great 
concern of ours. In looking at that----
    Senator Conrad. I am going to have to ask you to wrap up 
because, otherwise, we are never going to get through all the 
people who would like to speak.
    Mr. Red Tomahawk. The last point is roads. We need better 
roads, Senator, and looking at our streets and the roads, our 
school bus routes. That's all.
    Senator Conrad. Thank you very much. Yes, sir.

                  STATEMENT OF JEFF McLAUGHLIN

    Mr. Jeff McLaughlin. Welcome to Standing Rock, Mr. Conrad. 
My name is Jeff McLaughlin, M-c-L-a-u-g-h-l-i-n. I am a 
landowner through inheritance. I was directly affected as a 
result of the flooding the Oahe taken area. Therefore, several 
lawsuits were filed in tribal court. And the Hunkpapa Treaty 
Council, Standing Rock Landowners Association that initiated 
lawsuits on the JTAC through permission we acquired because my 
parents--my mother is from Kenel, my dad is from Wakpala, and 
so our family has a direct say in this. And there is a lot of 
things I want to say, but these lawsuits were filed because 
landowners are not being sufficiently compensated to their 
satisfaction. Because 85 percent was lost, the priority should 
be to the landowners secondary to the outlying district. The 
tribe does not lose as much land as the landowner. This is 
submitted in the court documents, that factual evidence, and we 
will be submitting some more.
    The case that--the angle that we came from is the 
landowners' priority and we should deem it necessary to take 
back the money or to reappropriate it to the landowners because 
as a solution, land replacement may be--just compensation may 
be a trust fund, a hundred thousand dollars for each family 
because there is a lot more than 180 families in the whole 
district. There is 300-plus individuals who are asking for more 
information, but the way the system is set up that we cannot 
access this because of the lawsuit, so we have to go--that's 
the only alternative. We try to reason with the tribe, the 
district.
    Currently I'm self-employed, unemployed maybe because of my 
activities. But this is what I believe in. I volunteered my 
services. The information is factual, but for whatever reason, 
the landowner should be dealt with appropriately, sufficiently 
and compensated, and that's why the lawsuit was filed. That's 
the only alternative. So I ask that--make a challenge if you 
reappropriate the money, because the way the system is set up 
now it's not working. And as a landowner we are asking for your 
help because we have been waiting 40-plus years for this. So 
another thing is interpretation of the law because each 
family's needs are different. Some may have lost houses, some 
may have lost all of it. But that's what we are asking, make it 
a priority for the landowners. With that, thank you.
    Senator Conrad. All right. Let me just say--I would ask 
Cora Jones to come back to the witness table. I understand she 
is still here. Let me just say, Lynn, if you would come up, 
too, because I am going to have to have you take over after I 
hear from Cora Jones on what we were just told here. We have to 
go to Dickinson today and we have people waiting for us there. 
So Lynn Clancy is my State chief of staff. He will take the 
rest of the testimony, it will all be recorded in the record 
and we will review that.
    I want to ask, Cora, we heard something here today that is 
a concern to me and that is that the $12 million that was drawn 
down for schools, apparently the assertion is that $7.4 million 
of that was used--has been used as collateral for loans which 
is not the purpose for which it was drawn down. Were you aware 
of that?
    Ms. Jones. No, sir.
    Senator Conrad. Well, that kind of goes back to the whole 
point I was making about knowing where the money is going and 
have very specific indication of where it's going before it is 
released. And this is exactly what I was worried about. Money 
was released for one purpose, and the testimony is here today 
it's been used for another purpose. Does that concern you?
    Ms. Jones. Very much, yes.
    Senator Conrad. Well, I think we have to get to the bottom 
of this. And I am asking as part of the process that you engage 
in to come back to us in 30 days with a process that we can be 
assured that money is released for a specific purpose and goes 
for that purpose, that you get to the bottom of this.
    Ms. Jones. I understand.
    Senator Conrad. I want to know if this is accurate. I want 
to know how this occurred, how money has been released for one 
purpose and used for another purpose because that is not 
acceptable and we have got to have an answer.
    Ms. Jones. Yes; I agree with you wholeheartedly. I wrote 
that down to ensure that that gets investigated.
    Senator Conrad. All right. I want to--I intend now to hold 
the record of this hearing open until I get the answers to 
those questions. And if you will provide it as soon as you have 
it.
    Ms. Jones. I will. Senator, can I add one more thing?
    Senator Conrad. Yes; was a resolution that was not 
rescinded, talking about the $12.5 million. In actuality, there 
was only $7 million that was drawn down on that, on this 
particular draw-down, and as far as--I have Dean Webb down 
here. Dean, can you come up and explain this, please? I'm 
sorry, my voice is going.
    Senator Conrad. No; that's fine. If he's got the most 
direct information, that's what we want in this hearing. 
Identify yourself for the record again, Mr. Webb.
    Mr. Webb. Dean Webb with the Office of Trust Fund 
Management. Just to make clear here, there was a draw-down that 
was requested for $12.5 million dollars, and in that $5.5 
million was to be used for this credit program, that was 
mentioned in one of the testimoneys. That did not fit the plan 
and we did not release that $5.5 million.
    Senator Conrad. Well, what we heard here today is $12 
million was released and $7.4 million was used for a purpose 
other than the stated purpose. That's what I heard here today.
    Mr. Webb. But the comment was also made about this tribal 
credit program.
    Senator Conrad. Right.
    Mr. Webb. And we did not release $5.5 million.
    Senator Conrad. You did not release the money for that 
purpose.
    Mr. Webb. We adjusted the 1034.
    Senator Conrad. It seems somehow the money got used for 
that. You may not have released it for that purpose, it got 
released for another purpose and used apparently in that other 
way.
    Let me just say this. I want to apologize to those that are 
standing in line and waiting to testify. I have to go because I 
can't make it in time for the next meeting if I don't. But Lynn 
Clancy, who is my chief of staff here in the State, has worked 
closely with people on the Standing Rock Reservation for many 
years and he will listen to the rest of the testimony, it will 
all be recorded in the record, so we will have a complete 
record of everybody's testimony.
    I want to thank everybody who has participated here today. 
I want to thank Chairman Murphy for his courtesy in helping 
organize the hearing. I want to thank Cora Jones for being 
here. I want to thank all of you who participated in this 
hearing. I appreciate it very much.
    Lynn Clancy will now take the additional testimony. And we 
will hold the record open for the hearing until we have these 
additional items made available.
    Mr. Good House. Sir, may I make a point of clarification 
here for Cora, as well as Dean Webb? There was $12 million 
drawn-down for three schools, one was the McLaughlin School, 
one was the Solen-Cannon Ball School and one was the Fort Yates 
District School. That $12 million that was drawn-down was 
rescinded after they got the money here. That money was 
deposited in the bank in Mobridge. It has since sat there and 
the tribe then, the administration because there was no 
resolution by the tribe reauthorizing use of that money, so the 
administration of this Government took that and used $7.4 
million of that money to collateralize--to cosign for loans 
across the country. Now, we have the documents from Larry New 
Bird, the finance officer, that speaks very clearly to that, as 
well. Thank you.
    Senator Conrad. Let me just say, I would like you to share 
that documentation not only with the committee, but with Cora 
Jones, because that should not happen, very clearly, and we 
have got to get to the bottom of what's occurred here and we 
have got to make sure that does not happen again. Thank you 
very much.
    Mr. Clancy. Thank you, Senator. We will continue now with 
the testimony and I believe we are on this side.

     STATEMENT OF FAITH TAKEN ALIVE, BEAR SOLDIER DISTRICT

    Ms. Taken Alive. For the record, my name is Faith Taken 
Alive. I'm from the Bear Soldier District.
    And I would like the Senator to hear my comment, and please 
take notice that there are two JTAC status reports, both dated 
September 20, 2001. One JTAC status report shows a $50 million 
minus that was issued in October at the Prairie Knights Casino. 
The second JTAC status report also dated September 20, 2001, 
that was passed out at the January Cannon Ball JTAC 
reservationwide meeting reflects a minus $57 million figure. 
There's a discrepancy of $7 million between the two documents.
    Also, on the September 20--yes, September 2002 JTAC status 
report, there is a list of where the banks--of money--where the 
JTAC money has been collateralized, there's a list of the banks 
where and the amounts where the JTAC funds have been sent as 
collateral.
    Also, if you go to the May 4--back to the May 4, 2002, 
motion number 47, I included it in the packet of documents I 
gave to you, a transcript of the May 4 meeting whereby there is 
no motion to approve the JTAC access plan or the EDFI or there 
was no motion, period. That was--Mr. Murphy clarified that 
himself three times in a row, and then proceeded to call for a 
second based on another councilman's recommendation, then took 
a vote on a motion that did not exist, then turned and used 
that tape verbatim to state that a motion by resolution was 
made to approve of the draw-down of the first $6 million of 
money to approve the JTAC access plan when in fact no motion 
even existed. I ask the Senator to take special--look at that 
for fraudulent obtaining of Federal funds.
    Also, the loans and land purchases suddenly stopped after 
Mr. Murphy was re-elected. I also request that the Senator's 
office investigate this stopping of the loans and the land sale 
based on election fraud laws--Federal laws of the United 
States.
    Also, I would like to emphasize to the Senator that we 
heard some nice, shiny, fluffy reports here today, but not one 
single job has been created with the JTAC funds. We have 
continued to live in a high rate of poverty. We continue the 
dependence of community members on the tribal council and the 
tribal government because of the lack of jobs. There is no 
financial dignity on Standing Rock for individual enrolled 
members. And I request that the Senator do a full-blown 
investigation on the JTAC funds of the Standing Rock Sioux 
Tribe, and I thank you for your time.
    Mr. Clancy. Thank you, Faith. Now we will go to the next 
mike here.

                 STATEMENT OF WANDA WHITE EAGLE

    Ms. White Eagle. My name is Wanda White Eagle. Shall I 
spell it? It's just the way it----
    Mr. Clancy. Spell your last name.
    Ms. White Eagle. White Eagle, two words, W-h-i-t-e E-a-g-l-
e.
    Mr. Clancy. Thank you.
    Ms. White Eagle. I have heard a lot of comments, and there 
was just one person that I really found--you know, this 
Archambault guy that told the story about our people, how the 
people are suffering on the reservations, the children, 
especially the children.
    We have a lot of educated people. We have a lot of people 
sitting on several committees, our and it seems to me like a 
lot of people kind of get carried away when it comes to money, 
when you talk money. And we should really sit down and put our 
minds together and start, you know, trying to create a 
different--you know, a different community, a different life 
for--there are seven districts--I think there are eight now on 
the Standing Rock Reservation total, okay, to create economic 
development. Just like I said, there's a lot of educated people 
within our reservation, but I see a lot of greedy people, too.
    I am one of the people that was applying for a business 
loan. I was told that there was a set amount of 350,000. I have 
a business plan that is like a multimillion-dollar project, not 
only from--well, I am from the Rock Creek community, probably 
one of the smallest communities on the reservation.
    I have this business plan, I am working on it right now, 
but just like everyone else, you know, personal problems, 
family crisis, medical emergencies, everything that can get in 
the way of you sitting down and putting your business plan 
together. And I am working on my own. I am not getting paid 
from any sources, no committees. I do not sit on any 
committees.
    I am a mother, full-time mother, concerned member of our 
community, and I see a lot of the children struggling and 
suffering, and I as a person want to make a commitment to make 
those changes, and with this business plan I have, you know, I 
am going to see these changes, I'm going to carry out these 
changes, and I have a multimillion-dollar project, and I'm 
talking about dinosaurs, I'm talking about fossils. You all 
know what that is. We have those in our community of Rock 
Creek, within the boundaries, the natural resources.
    And I'm going to tell you a story about how our people 
lived a long time ago, but we lived off the land. I'll cut my 
story short so other people can give their input and whatever. 
But I just want to let the people know that it's time now to 
stop and to take a real good look at what we--the opportunities 
that we have to create a better future for our children. I am 
talking about a cultural center with arts and crafts. All our 
people on the reservation have been gifted with the talents of 
art, being able to create costumes, beadwork, star quilts, and 
I hope you know what I am talking about. Just to give you an 
idea what I am talking about----
    Mr. Clancy. I think so, Wanda. But we do need to have your 
plan--business plan, and so on, fairly addressed by a process 
that would be put in place that administers the business 
development fund or the equity fund. I don't think we will be 
able to do that in this hearing.
    Ms. White Eagle. Yes; well, I was just here to inform the 
people I am one of the people that is trying to create economic 
development for our community. By this I was talking about the 
dinosaurs, we can create jobs that way for our people, on-the-
job training to bring back, you know, and then a museum to 
preserve our natural resources. By that I am talking about the 
dinosaurs and the fossils. Our home is where Sitting Bull was 
born and where he was raised and where he died. And there is a 
lot of history in our community that the people kind of fell 
away from, so we want to preserve that. You know, with this 
museum we want to be able to preserve those things, but we 
would also like to create economic development and a better 
education for our community and for our younger generation, but 
not only the Rock Creek community, the whole Standing Rock 
Reservation as a whole. I'm talking about the whole 
reservation. I'm not just thinking about Rock Creek.
    Mr. Clancy. Well, thank you very much.
    Ms. White Eagle. Thank you.
    Mr. Clancy. Now to this mike.

   STATEMENT OF SHIRLEY MARVIN, TETUWAN OCETI SAKOWIN TREATY 
                            COUNCIL

    Ms. Marvin. Thank you. My name is Shirley Marvin. I'm with 
the Tetuwan Oceti Sakowin Treaty Council.
    And, Mr. Clancy, we were up visiting you in your office 
last month, and if you remember, we gave you a packet of 
material, a tape----
    Mr. Clancy. Yes.
    Ms. Marvin. [continuing]. A transcript. I would encourage 
you to really read those and go through everything that we did 
give you. Listen to that tape. It's a shocker.
    But what you've heard here and what you are hearing is just 
the tip of the iceberg. You know, there's been a horrible 
misuse of power in regard to JTAC funds. People have said 
earlier that there have been no jobs created, and that's the 
truth, no jobs. You have documentation within that packet that 
shows you illegal use of resolutions, instruments of 
government, have been misused. They have been doctored. And 
that's all in that packet that we gave you.
    Mr. Clancy. And that material has been put into the record 
and we do have it.
    Ms. Marvin. Thank you. What I would like to recommend is 
that we have a complete investigation from the IGA's or RG's 
office because there is just too much. People have lost money. 
I am a landowner, too. I never did get paid for the land that 
we had here. My home that I grew up in, that was flooded. I 
never did get paid for it, so I know what these landowners are 
talking about because I am one of them. And I don't have a job. 
I also know what the unemployed are talking about. We need 
jobs. I don't have a home. I know what the homeless are talking 
about. So I fit in all these categories.
    And I am requesting a complete investigation, not just an 
audit, an investigation because the deeper you dig on this 
material, the more you are going to find the illegal things 
that are happening and have happened. And I think the people of 
Standing Rock deserve that.
    Mr. Clancy. And Senator Conrad shares your concern.
    Ms. Marvin. Thank you.

  STATEMENT OF RANDAL WHITE, TRIBAL COUNCILMAN, PORCUPINE, ND

    Mr. White. Randal White, R-a-n-d-a-l W-h-i-t-e. I represent 
the Porcupine, North Dakota, I'm a tribal councilman there.
    I guess my wishes--I have been sitting--our community has 
been sitting around the roundtable for the last 6 years of 
planning, planning, planning, and we are one of the communities 
that would like to see some of that money so that we can build 
maybe a small clinic in our community, more houses, we can do 
more things within our community, probably put in a convenience 
store, because there is a need, that we have been sitting down 
for the last 6 years.
    And I hope each of the eight communities also need the same 
in each of the communities. Each need is different. So I just 
wanted to share that with you, because we have been sitting 
around the roundtable for the last 6 years planning and 
planning and now it's time that we see some of that money to 
build jobs in our communities, give education money to our kids 
to go to school.
    I know my wife goes 80 miles roundtrip just to work. A lot 
of our community members drive a long ways to work. We want to 
put jobs there so we don't have to travel as long. Also, the 
community of Selfridge needs water. And our roads in Porcupine 
and Selfridge need some repairs, so we sure could use some of 
that money out to the eight districts. Thank you very much.
    Mr. Clancy. Thank you. This mike.

                    STATEMENT OF ALMA MENTZ

    Ms. Mentz. My name is Alma Mentz, A-l-m-a M-e-n-t-z.
    I'm here on behalf of the landowners that have lost land. 
My mother happens to be one of them. And this is the thing Mary 
Louise Defender Wilson spoke about, so many of the families 
that grew up along this Missouri River that have been forced to 
the top, to the back. To no-man's land, they put us, the 
government--the U.S. Government. And we need to be healed. We 
need to be healed. We're hurt. We are still hurting today 
because of what the U.S. Government has done to you and I. For 
what? No money.
    My mother lost all her allotments. She lost four 
allotments. I believe she received $1,200. You cannot put or I 
cannot put value on the trees, the land. You cannot put a value 
on their being. But this is nation, the red nation, the Sioux 
Nation, the Great Sioux Nation I have been saying.
    But now what I want to see is that some of the landowners--
some districts have been given millions and millions of 
dollars. When are the ones that had lost land and from thus 
generated the JTAC money, when are we ancestors going to get 
any of the money, the funding that's going out? The landowners 
lost all this land. We're sitting here and over there somebody 
else is fighting over the money that has been generated from 
the landowners' land. I'm hurt. I will speak against that to my 
people today again. I speak like this to my council when I go 
before them, because they are sitting on these serious 
problems. We need to be healed. We have no funds set aside for 
the healing process.
    Look at our people. We are all going under with alcohol, 
which the Government sent up the river to destroy the red 
nation with. He first tried to kill off our buffalo. A little 
history to you, sir. He said let us starve the people when he 
got defeated by the Great Sioux Nation. He said let us starve 
them. He chased my people all over. He massacred here and 
there. Then when he couldn't, we were still survivors, he said 
let us give them blankets with the disease of smallpox, and 
which he did. This is why Lewis and Clark--the people are 
strong on Lewis and Clark heavily today. I don't need to hold 
them up there just because he's going to give me a few dollars 
for my pocket to be remembered. Why aren't our ancestors 
instead of Lewis and Clark? What kind of Indians are we today?
    Mr. Clancy. I appreciate your comments.
    Ms. Mentz. I really get upset, all these issues going on 
here today. We need to be compensated.
    Mr. Clancy. The purpose of this program is to try to 
address some of those injustices.
    Ms. Mentz. Thank you so much.
    Mr. Clancy. Thank you.

   STATEMENT OF ANTHONY WHITE MOUNTAIN, PROGRAM COORDINATOR, 
       LAKOTA RESIDENT MANAGE CORPORATION, McLAUGHLIN, SD

    Mr. White Mountain. Hello. My name is Anthony White 
Mountain, A-n-t-h-o-n-y W-h-i-t-e M-o-u-n-t-a-i-n, Senior. And 
I work with the Lakota Resident Management Corporation as the 
program coordinator in McLaughlin, SD.
    And our resident management program and the boys and girls 
club have put in requests JTAC money, which we are denied over 
and over. I was wondering if that money can be used for social 
programs to help the people and the residents such as finding 
them jobs, and so forth? Can that money be used for that 
purpose, for the purpose of a boys and girls club?
    Mr. Clancy. Are you talking about a club?
    Mr. White Mountain. JTAC money use.
    Mr. Clancy. It would seem like it's within the purview of 
the legislation. You know, I'm sure again there is a process 
for evaluating these proposals, a determination can be made. I 
don't think I should be trying to make that determination here 
today. But certainly that's a worthwhile process to develop 
youth. We need those kinds of programs.
    Mr. White Mountain. One other question I have is the fact 
that the illegal use of the JTAC money for election purposes, 
what would happen if that was found to be true?
    Mr. Clancy. Well, that's a whole--another issue that really 
gets separate from JTAC and it needs to be looked at perhaps by 
law illegal process of conducting elections, and I have heard 
some very serious allegations made here and they need to be 
investigated in a different way than this hearing would 
provide.
    Mr. White Mountain. Will that jeopardize the JTAC funds as 
it exists now, if that is found to be true? If that's the case, 
it can be found to be true, will that affect the JTAC money as 
it is now?
    Mr. Clancy. I don't see it affecting JTAC money for the 
future. It's certainly something that would need to be stopped 
and other legal proceedings brought to bear, investigations to 
make sure that justice is brought for the past, but we would 
through this process be making sure it doesn't happen in the 
future.
    Mr. White Mountain. Thank you very much.
    Ms. Defender. Last but not least, Mr. Clancy, I have a 
letter that was written by a renowned actor--I don't know if 
you have heard of him--Gary Busey. Dear Mr. Conrad: The 
following message was telephoned to me last evening. The 
messenger is a young renowned actor who had the opportunity to 
know the late Joseph A. Walker, who was vice president of our 
Lakota/Dakota Advocates for Human and Civil Rights and one of 
the founders of this organization.
    Mr. Busey states to Senator Conrad, quote:

    Whatever Standing Rock needs for the good of the people 
relative to JTAC, you must listen to the elders and the 
advocates for human and civil rights.

    And I would like to give this to you because he's got a 
little note at the bottom.
    Mr. Clancy. Very good. I appreciate that. Okay. At the left 
here.

                   STATEMENT OF PHYLLIS YOUNG

    Ms. Young. My name is Phyllis Young, P-h-y-l-l-i-s Y-o-u-n-
g. I am a resident of the Fort Yates District and an elected 
member of the Fort Yates Local District Planning Commission. 
And I would like to welcome the Senator and thank him for 
having a hearing in our community and here on Standing Rock.
    From the onset the Fort Yates local district has 
acknowledged the importance of effective plans, clear 
accountability and grassroots tribal development in developing 
and implementing the recovery program.
    Our district has actively participated in the development 
of the required tribal plan for implementation of the funds, 
including the seven drafts of the plan that was approved by the 
BIA in 2000. The Fort Yates community focused on the 
development of the ordinance, as well, that ordinance having 
been drafted several times and in fact still in the development 
stages.
    The key factor in the development of our plan is finance. 
The Fort Yates community leaders are determined that equity 
development finance will be a reality for our community and our 
tribe. The district has strongly recommended that the EDFI, 
Economic Development Finance Institute, not be included in the 
ordinance so that a financial structure can be developed in its 
proper context.
    There are many community members who are still trying to 
grasp this new technology finance. There are many members and 
leaders who are trying to grasp the entire development of the 
legislation. It has not been easy. It has not been timely. But 
our time is here now. The Standing Rock Sioux Tribal Council 
has approved $1.2 million for a Fort Yates housing plan that 
will be reservationwide to begin healing and recovery through 
home building. Hopefully this will be a yearly program to 
rebuild the 197 homes destroyed in the flooding in 1960.
    The Standing Rock Sioux Tribal Council has approved of an 
additional million dollars which the Fort Yates local district 
will use for a quilting project, $250,000, purchase lots and 
facilities for business development, 189,500, an Economic 
Development Finance Institute phase 1, which is $160,500.
    The Standing Rock Sioux Tribal Council has approved $6 
million for the Fort Yates District Oyate Wicha Ukini Project, 
Re-awakening of the People, which fits in the social component 
of the plan and the ordinance as adopted. The plan will be used 
to bring the people up to standard living conditions as much as 
possible, $3.5 million. And the Community Equity Development 
Finance Institute, which may be a consolidated effort with the 
tribe, but currently the plan is to craft a project that would 
fit the needs of the Fort Yates District, $1.8 million, phase 
2.
    The Fort Yates local district appreciates the uniqueness of 
Public Law 102-575 as it applies to Fort Berthold and Standing 
Rock. As stated earlier, the Fort Yates community involved 
itself in the development of plans and guidelines. It has been 
a tremendous exercise of responsibility and self-help as the 
Congress gave broad discretion to the development under this 
act.
    Senator Conrad and committee members, we thank you for your 
interest and your continued support of the issues at Standing 
Rock. For now we thank you and urge your support of our 
projects, particularly Oyate Wicha Ukini, Re-awakening the 
People, so that our people may live.
    In closing, I would like to recommend that there be an 
amendment so that the financing and the floating bonds can be a 
reality, that there will be an amendment for accountability for 
ourselves here at home and in the law that we all had dreams of 
that became a reality. Thank you.
    Mr. Clancy. Thank you, Phyllis.

   STATEMENT OF SHANNON SILBERNAGEL, MEMBER, EXECUTIVE JTAC 
                           COMMISSION

    Ms. Silbernagel. Good afternoon. My name is Shannon 
Silbernagel, S-h-a-n-n-o-n S-i-l-b-e-r-n-a-g-e-l. I am a member 
of the Porcupine community. I'm also an Executive JTAC 
Commission member. I sit on the Commission with Cedric Good 
House.
    I want to stress today that there is a need for the 
oversight office to be put in place by the Standing Rock Sioux 
Tribe. My concern is that there has been millions of dollars 
allocated out and given to various groups of people. My concern 
is that that money needs to be accounted for, that there needs 
to be audits done. We as a commission have stressed this. We've 
talked about it repeatedly.
    And I am thankful that you people were able to come to the 
Standing Rock Sioux Tribe today to hold these public hearings, 
and hopefully we can get in place our oversight office, and 
that's to ensure the accountability of how these dollars have 
been spent. To date we don't know if there was a plan that was 
submitted and if that plan has been followed in detail, we 
don't know how those dollars have been expended. As a 
commission member, I am concerned about that, as well as the 
rest of the commission is. That's where the accountability 
comes in.
    I also want to stress that there are some positive things 
that have come out of JTAC dollars. There was moneys given to 
each district. I am from the Porcupine District. We are 
striving forward. We have initiated a plan for that million 
dollars. I am ensuring and working along with my district 
people to ensure the accountability of those dollars.
    We are moving forward, although I would like to see that 
there be more equal access out there to the general public, to 
the private person, a person coming in and wanting to set up 
their own business, to create jobs on the reservation. I would 
like to see more equal access. That to date has not been done 
by our council, nor has any dollars been set aside so that 
people can come in and start their own business, present a 
legitimate plan to the tribe to start a business and employ 
people. I have not seen that to date.
    These are my concerns I share with you, the panel, today 
and I would like to see that that oversight office is put in 
place by the tribe to ensure that accountability. Thank you.
    Mr. Clancy. Thank you, Shannon. Yes.

     STATEMENT OF FRED WEIST, OWNER, GREY EAGLE MANAGEMENT

    Mr. Wiest. My name is Fred Wiest, last name W-i-e-s-t. I am 
the owner of Grey Eagle Management. I do financial management, 
collections and things of that nature.
    You know, I recently am one of those individuals that 
secured a loan through the tribe to be able to expand my 
business and go about pursuing defaulted loans that were--the 
tribe had cosigned for or that they had approved to 
individuals.
    I guess I am really disheartened. The past couple of weeks 
here I have been down to Sioux Falls, SD, down to Rapid City 
and into Pierre visiting with attorneys, seeking out lawyers 
that are a member of the Federal bar for a specific reason, 
that I believe that myself and my company were violated in what 
I understood to be a good-faith contract and agreement that I 
had with the tribal council to collect delinquent loans.
    I would like to enter for the record, Mr. Conrad's 
information, you know, that I am looking at a letter that's 
dated March 15, 2002, to Larry Luger regarding the tribal loan 
programs that are delinquent and defaulted loans. And it's 
written to Mr. Luger, a copy was provided to Chairman Murphy, 
and it's by William Perry of the Sonosky Chambers Law Firm in 
Washington, DC.
    In essence this correspondence, which has been circulated 
all over the reservation--I got a copy of this, was provided a 
copy of this letter from an individual that lives in that 
district, not even where I'm from. And I immediately the next 
morning after receiving this--reviewing this letter went to 
seek an attorney, as I mentioned.
    In essence this letter states that there will probably be a 
point in time where the tribe will be wiping off all these 
loans. I'm not saying--there were statements here made that 
possibly JTAC revenues were used for some of these loans. I'm 
not saying that is to be the case or not, but in the event that 
it is, the strategy is laid out in this letter, in this 
communication, you know, that gives, you know, the individual 
who decides not to pay a loan--payback the loan to the tribe, 
gives them the strategy on how to defeat it in a courtroom 
environment. And so it tells me, you know, that it's just a 
wasted effort on my part.
    You know, and if this were the case, then I think that Mr. 
Conrad's office should see the seriousness of what's going on 
there and immediately issue an injunction and freeze any 
further draw-down of that money, and that any investigation 
that comes out of the mismanagement of these moneys should be 
done in concert with the Federal Bureau of Investigation.
    And, furthermore, I think that the information that comes 
out of this investigation should be made public and available 
to the people of the Standing Rock Sioux Tribe, not just to a 
select few, maybe a governing body. We have been in the dark 
for too long. I think that if there were--if there was in fact 
gross mismanagement of the tribal treasury, I think that we 
have Mr. Conrad's sincerity that he should be sitting down 
maybe when he's in Washington with the tribe's law firm and 
finding out, getting down to the bottom of what's going on 
here.
    Mr. Clancy. Let's see if I understand what you have said. 
You had a contract?
    Mr. Wiest. I have an agreement with the tribe, as do my 
company, as a collection agency to pursue delinquent loans.
    Mr. Clancy. To make sure if loans were delinquent, that you 
would----
    Mr. Wiest. I would attempt to collect the money back for 
the tribe, yes.
    Mr. Clancy. And that has--that contract has never been 
utilized because there were 100 percent guarantees provided 
and, therefore, the loans have never gone into default?
    Mr. Wiest. There was a variety of different types of loans. 
What I'm saying, sir, is that if some of these loans were in 
fact--if the bank notes were retired with JTAC money, I don't 
know about that, you know, for a fact or not, but it would be 
my job, you know, to go and attempt to collect back as much as 
I can from these individuals that are in default or delinquent 
status for the tribe.
    Now, I think that there was a lot of politics played in the 
whole process, anyway. I was always of the opinion that they 
never sincerely wanted anybody to collect this money back. This 
communication that I'm talking about, sir, practically outlines 
to the individual who chooses to go into a delinquent status, 
practically outlines the very strategy to use in tribal court 
and get away without ever having to pay the money back. There 
was a lot of implications in here.
    I was prepared--in fact, we had some council members here 
that were sitting here earlier today, last month I was prepared 
to go full steam ahead and start to pursue this. And I asked to 
be put on the agenda on his respective committee so I can make 
a report on how I am going to do this and what I consider turn-
around times and stuff like that, then this communication was 
given to me. Like I said, it's dated March 15. And I have taken 
this and I have shown it to attorneys, and it's a very alarming 
correspondence, very, very carefully written, choice of words, 
and in essence it points out quite a few things, no policies in 
place for the loans to even be granted, no application process, 
no nothing, and then it goes on to state that he encourages 
them to develop something immediately, you know, for any future 
things. He cautions them about doing anything ex post facto, 
and then he goes into the strategy that can be utilized to 
defeat anyone--not just me, but anyone attempting to collect 
these loans.
    Mr. Clancy. So you are presenting this document for the 
record?
    Mr. Wiest. I will. I have got the clipping for the hearing, 
sir. I will send a copy of this correspondence to Mr. Conrad's 
office. My intention was today to follow Mr. Conrad back to 
Bismarck. You know, I also want to meet with Jennifer Ring of 
the Civil Liberties Office up there. But it's a serious concern 
for me personally to see that this would come out in what I 
thought was a good-faith agreement with the collect some of 
this money.
    Now, if it turns out so that some of this money was--some 
of these bank notes were in fact retired with JTAC money and 
these individuals getting away free and clear, it would confirm 
something that I was told by the former Legal Aid attorney that 
was in this area, who is now, I believe, working with the 
state's attorney's office in South Dakota out of Rapid City, 
and comments were made about money--loans that were going out 
during the election. What that attorney advised--well, not 
advised me, he encouraged me. I'm also an advocate in tribal 
court for him. But he asked me to look at whether or not these 
acts being committed by our elected officials, if I felt that 
they constituted bribery, bribery of the people in order to 
gain politically for themselves, put them in office. I did 
never want to believe that, but it's appearing more and more to 
me that that's in fact what happened.
    I'm alarmed, you know, that I did something in good faith, 
that I approached our government and asked to try to collect 
this money back for our people. I'm alarmed that I may very 
well be the only one that will be paying back my loan to the 
tribe.
    Mr. Clancy. Thank you for your testimony today.
    Mr. Wiest. As I said, sir, I will quite possibly be up to 
Mr. Conrad's office or your office probably tomorrow and I will 
bring this document with me.
    Mr. Clancy. Is there any more testimony?

         STATEMENT OF ERROL MEDICINE, WAKPALA DISTRICT

    Mr. Errol Medicine. My name is Errol Medicine, E-r-r-o-l, 
Medicine, M-e-d-i-c-i-n-e. I'm one of the people from the 
Wakpala District.
    One of my main concerns is that we were the original people 
that got flooded out along the Oahe. Originally where the 
headquarters of the tribe is supposed to be is old agency along 
there. And I feel that we as the people in Wakpala, we have 
always been given what they say is the ``crummy end of the 
stick.''
    We have gotten what, that $4 million for the school to be 
redone, and we badly need economic development for our people 
down there to get involved along the Missouri River down there. 
They know that South Dakota hardly gets anything. Like you 
said, they want to hear nothing about the South Dakota side. 
They moved the headquarters from Wakpala up to here 
temporarily, and a lot of our people feel that we should move 
it back to where it originally belonged because of the economic 
sanctions, that we have got a lot of people in Wakpala.
    That $1 million that we got so far is little or nothing to 
what has happened to our people. I feel that the Wakpala 
District should be compensated fully for what they have made 
that town into, a ghost town--at one time it was a thriving 
community--due to the flooding of the river.
    Mr. Clancy. How is that planning process going on there in 
that district?
    Mr. Errol Medicine. Our planning process is going on pretty 
good. One of the things that we have a problem with is that 
they have given us an additional--we got $50,000 to do the 
planning with, and when we got done with that, the $50,000--
because of the nature of getting the consultant, that $39,000, 
that we expended our $50,000, you know, just in one shot 
retaining our people. So our planning, we need more money for 
planning to get an adequate job on planning. I feel like 
$150,000 should be adequate, enough for all the districts to do 
planning, because $50,000--you can't do nothing with $50,000 to 
plan. To get your whole district involved and to get your 
people behind you, you need like $150,000 to make wise 
decisions, good decisions, thought out, well-planned decisions.
    I feel like Mr. Chairman--Charlie Murphy is rushing 
everybody's decisions to jump through these hoops to spend 
these moneys and to go wild. I don't think that any of these 
things that are going on that he's telling you is true because 
I believe it's just a smoke screen to show you these things. 
But we are also going to be sending you some of the things that 
we feel is wrong in the Wakpala District. And we will be 
sending those up to you, but we just wanted to let you know 
right now that Wakpala, we feel as a district that we are one 
of the main people that got a lot of stuff taken from us, 
including the town. Like I said, Kenel got that $6 million 
because they got moved up on top of the hill. Wakpala got--
totally lost everything. We should have got $6 million, too, 
right off the top. We just got a measly $1 million. I feel that 
we should be compensated just, too, with the $6 million.
    Mr. Clancy. Thank you very much. Any further testimony?

                  STATEMENT OF CHASE IRON EYES

    Mr. Iron Eyes. What's your name?
    Mr. Clancy. My name is Lynn Clancy.
    Mr. Iron Eyes. Lynn, how are you doing? My name is Chase 
Iron Eyes. And, quite frankly, I don't see how whoever you 
represent, you know, tries to, what do you call that, structure 
or pretty much trying to say how we can spend money that's owed 
to us, whether it be $90.6 million or $90.6 trillion, for 
wrongs that were committed by your government like less than 60 
years ago. So, I mean, just the interest we're drawing off of 
this is just--you know, that's measly. But I guess--then on top 
of that you're trying to tell us how we can spend that money, 
when people are just working on home improvements, you know, 
things like that. So maybe you want to take that back to 
Senator Conrad. It would be very much appreciated, sir.
    Mr. Clancy. Thank you for your remarks, and this will 
conclude----
    Mr. Iron Eyes. Oh, yes. And that fighting Sioux mascot 
issue, that and the Redskins issue, I want to bring that up a 
little more.

                  STATEMENT OF JANET HARRISON

    Ms. Harrison. Good afternoon. My name is Janet Harrison, H-
a-r-r-i-s-o-n. And I'm from the Rock Creek District.
    Mr. Clancy. It's Janet?
    Ms. Harrison. Yes; I guess what I would like to see are, I 
would like to recommend to Senator Conrad is that that I know 
that you have heard everything about how this money has been 
distributed or hasn't been distributed. I know that the 
districts have different populations and according to that 
there should be some set formula that needs to be developed on 
how the money is distributed. As you heard, a couple of the 
districts got $6 million and others got $1 million.
    I am a descendant of some of the--my grandparents lost a 
lot of land on that river. I would like to see some type of 
formula that would be more equal for all of the districts. One 
is not more important than the other. We're all having the same 
kind of social and economic hardships as everybody else. And we 
in Rock Creek, we live the furthest out. To get to Fort Yates 
on a daily basis, a 54-mile trip. So you double that, that's 
108 miles.
    We are working on ourselves, our community. We're trying to 
become self-sufficient on our own. We have begun that by having 
our own cattle business. The JTAC funds come in. We're hoping 
to expand, and we would rather do for ourselves than have 
people give us handouts. We've worked hard for what we got and 
we hope that Mr. Conrad looks at all the districts, what 
they're doing, their plans, their detailed plans, their 
budgets, et cetera, that some of those are using those 
guidelines that are set forth in the JTAC Act, itself, to right 
the wrongs, to not--I guess not to hurt the entire Tribe 
because of a few items that are--seem to be focused at this 
meeting. That's all I have to say.
    Mr. Clancy. Thank you.

                  STATEMENT OF WILMA MEDICINE

    Ms. Wilma Medicine. Hi. My name is Wilma Medicine, M-e-d-i-
c-i-n-e. I am just one of the people from the South Dakota 
side. I am a single mother. I am trying to locate jobs and, if 
I do, I have to go over to the Mobridge side.
    Myself, I wanted to be here on behalf of my children and my 
great-grandchildren about the school situation. Okay. I went 
and applied as an assistant cook for the Wakpala School, and 
there's only a handful, about three or four people, that are 
Native American now that work in that school. I feel like I got 
discriminated over there because there's a wasicu guy who had a 
CDL license. And, myself, I was only applying for a cook's 
position, not no bus drivers, and I feel like I have got 
really--really got hurt out of this because now I am 
unemployed. And I am only just a little person, I cannot feed 
my children, but I see a lot of people up here getting money, 
and I haven't got anything. I'm always looking for jobs for 
myself to support my children.
    And I feel that--myself, that Mr. Conrad should look into 
more of the school and having Native American people work on 
the South Dakota side for the people because it would show our 
children that our children can look up to the elderlies, 
myself, the older people and say, yes, we can be teachers, yes, 
we can be cooks, yes, we can do this; but, no, we are always 
the ones that always get left out. And me, myself, I just come 
to let him know that I am just one of the many in poverty.
    Thank you very much and you have a great day.
    Mr. Clancy. Thank you.

             STATEMENT OF JERALD KILLS PRETTY ENEMY

    Mr. Kills Pretty Enemy. Thank you for allowing me to speak. 
My name is Jerald Kills Pretty Enemy, J-e-r-a-l-d, K-i-l-l-s P-
r-e-t-t-y E-n-e-m-y. I guess I am a representative from the 
Rock Creek District. I am a JTAC representative, as well as a 
member of the tribe.
    I guess my concern was the expenditures and the drawdowns, 
as well as what was happening with the JTAC money. We as a JTAC 
committee had from time to time been addressing and sending 
letters to the chairman addressing a lot of different issues in 
regards to JTAC because of our concern on how--what the process 
and the procedure needs to be.
    I, myself, hand-delivered an ordinance and the access plan, 
as well as documents that we addressed this to the tribe to 
Cora Jones. I, personally, took it to her office and had her 
sign a form for me for proof that I had been to her office 
addressing these things. So she is well aware of a lot of these 
things that are going on here. And for her to sit here and make 
things look so good, that she's not aware of it, to me sends a 
real negative message to the people here. You know, something 
needs to be done with her position because of the fact that I 
don't believe, you know, we should have somebody representing 
us in the Bureau and allowing this to happen, allowing this 
allocation that we got and these draw-downs and this interest 
money to happen.
    These people are all well aware. They made it look really 
good here from start. And I'm hoping that, you know, you hear 
us. We sent a lot of information to Kent Conrad's office. He's 
well aware of a lot of things that have been going on here. We 
have been addressing it over and over time and time again.
    And I believe there needs to be an injunction here, a full 
investigation to stop all this. Last January we were suspended 
as a JTAC advisory committee, but in reality back in September 
2001 we were appointed to the JTAC Executive Commission. Back 
then when the ordinance was approved of, that was not the 
original ordinance that was approved of. So what we have here 
is the ordinance and the access plan do not coincide with one 
another.
    And I think a lot of dissension has been created among all 
of the people here on our reservation, you know, over this 
money. And I'm glad to hear what Mr. Archambault had to share 
with shows just what is happening here, what we need to do, our 
leadership. Where is our leadership?
    But my concern again goes back--reflects back to what has 
happened with this money, the loans that have gone out and gets 
written off, if it's to be.
    Like I say, we were suspended and then we were put back 
into office again, but, you know, there was a real negative 
impact that was put upon us in the JTAC Commission as a body, 
you know, making us look like we were the bad people. But we 
didn't do nothing wrong. We didn't do nothing bad. We tried to 
make it so that there was an opportune chance for our people to 
equally access this money. And that has not been done.
    The guidelines and everything that was sent down was not 
there for the people. The process was not there. No policies 
and procedures. They have taken all that responsibility away 
from us. We have developed an administration. We have put a lot 
together here to see to it that, you know, this was going to be 
an equal opportunity for our people. That did not happen. And I 
think you know something needs to happen here and I believe 
myself that the Senate needs to intervene. People are well 
aware. We know what's happening here. With that I thank you.
    Mr. Clancy. Thank you very much. Yes.

     STATEMENT OF LYNES END OF HORN, BEAR SOLDIER DISTRICT

    Mr. End of Horn. Good day, sir. My name is Lynes End of 
Horn. I am presently from the Bear Soldier District. I wasn't 
aware of this forum taking place, and I was up in Bismarck, but 
I hurried back and here I am.
    What I did--you have heard the people of Standing Rock 
voice their opinion. Prior to this, sir, the first part of 
March of this year I took a survey, I passed a survey out, and 
this survey went into five national newspapers, and the 
response of the survey was 1876 enrolled members of Standing 
Rock living on and off the reservation.
    One of the biggest concerns on the responses, sir, is that 
these people that do not live on the reservation, where is 
their money going to? Their heads are counted here, but their 
money is not going to them.
    But, again, on the other hand, an example in Grand Forks, 
ND, we have 18 college students, 8 of them get money, but the 
others don't. We also have men in the military. Where is their 
money going to? We also have children that are in foster homes. 
They left here years ago as a foster--adopted or orphaned 
child, but they're not getting money and their heads are 
counted here. That is the theme question.
    And I am not pointing fingers. I am going to leave a copy 
of this survey and the response with you. I have mailed one to 
Senator Dorgan's office, Senator Conrad's. Everybody that I can 
think of that's a congressional person I have mailed this to 
them, so it should be in their office, but I want to leave this 
with you for you to look at.
    Whatever is happening here, we are all to blame, sir. We 
have elected these people. We have put these people in a 
position to be responsible to us, the Indian people, but it is 
not turning out that way. So with that, I'm going to leave this 
with you, and I want--I would like you to read it over and 
discuss this with your congressional people, and if you would 
respond to me. My address is on here. My phone number is on 
here. I am concerned. I am a retired teacher, I'm an ex-
serviceman, and I'm 100 percent service-connected disabled.
    All these years I have been here there was only one time, 
sir, I have held a job at Standing Rock Sioux Tribe. I made a 
statement, that following month--that following Friday, I was 
terminated. So within the past 23 years I was never employed on 
my own reservation. As of now I don't have a home on Standing 
Rock. I have been number one on the list with housing for the 
last 15 years. The comment I got and the letters I get, you get 
a house this spring. Fifteen springs went by. I haven't gotten 
my house yet. I have applied--last year I've made 18 
applications to the tribe. I was rejected on every job. I am 
well-qualified, I'm well-papered, I'm experienced, but I have 
not been satisfied with anything that is happening on my 
reservation up to now.
    So is the reason that this survey went out. And I think 
when you read this survey, you will understand what all of 
these people that are talking about, you will understand. This 
survey comes from people both on and off the reservation, 
college students, military men and children that are foster or 
orphan children, elderly, young and old, sir.
    With that, thank you. Thank you, sir.
    Mr. Clancy. Thank you very much. I would appreciate it if 
you just leave it there, I can pick it up. I think we have come 
to the conclusion here. Yes.
    Audience member. What is the address to submit the written 
documentation?
    Mr. Clancy. To Senator Kent Conrad's office, and that can 
be in his Bismarck office, which is Room 228, Federal Building, 
220 East Rosser, Bismarck, ND 58501. Yes.

         STATEMENT OF MAXINE WHITE BULL, KENEL DISTRICT

    Ms. White Bull. My name is Maxine White Bull, W-h-i-t-e B-
u-l-l. I'm from the Kenel District. And we are the ones that 
had to move--the whole town had to move out. And I was there. 
And very few of us are left that live there. But we lost a lot. 
We had our livelihood there. And I could remember things as I 
grew up.
    The things that are going on now like drugs, alcohol affect 
all our people. We didn't hardly have those in those days when 
we were living there. There was nothing. Of course, we didn't 
have no money or anything, but it seemed like the people got 
along better, you know. We all helped each other. Something was 
always going on.
    And one of the things I was concerned about, I sat in a lot 
of meetings at the tribal council just listening, people 
arguing about money since this JTAC money came out. I'm sitting 
there thinking that the things they mentioned was--you know, 
because we were the first ones, I guess, we asked--we put in a 
budget. The first JTAC committee was formed, they said all you 
needed was a budget, what our needs were and come up with 
something, so we did, and we were turned down the first time, 
so we--one of our councilmen, this was 1998, I think, he pulled 
it through for us through the council. That was for $6 million. 
We still have that plan in place. And we never spent any--the 
million, and the $5 million we invested or we put in CDs. It's 
in a bank, but we have not spent any of it. But we have our 
plans in place.
    And one of the things we always heard, you know, Why did 
Kenel get $6 million? I got here late so I don't know what went 
on in the first part, so I didn't hear what was said, but that 
really hurts me when I hear that. And they left us out on that 
million that they gave out, plus $50,000 was allowed each 
district for the JTAC planning. We were left out, but we got 
that again later on.
    But why are they saying this when we lost the most? And I 
tell people, if it wasn't for us, you know, you wouldn't be 
fighting over this money. We were the ones that were supposed 
to be compensated and we didn't get compensated enough. And 
there's a few of us left that have moved out to other districts 
or completely moved out because there's no jobs now. They live 
in the cities, they're enrolled here, and they're being left 
out. I think this was brought out by some of the people that 
talked here.
    Mr. Clancy. So is the Kenel plan being followed?
    Ms. White Bull. Yes.
    Mr. Clancy. Are you making some progress with it?
    Ms. White Bull. Right now we have purchased some cattle and 
we are going into that business, so the last 2, 3 years we have 
that business. And there's other plans that are coming up that 
we're going to pursue.
    So that's all I wanted to say. But I think that's really 
wrong, because someone said, you know, it will take more than 
$20 million to get what we had before, stores, schools, 
sawmill, what all we lost there, ball fields. People got 
around, you know, recreation. So those things we lost, but they 
bring that up and that makes me mad.
    Now the other districts are asking for more, and I think 
they're getting it. So I said maybe we should ask for more, 
too, to replace what we had. That's all I want to say. And 
education is the most important thing because right now the 
students are suffering. Some can't get funded, they have to 
quit. And what's there to come back to on this reservation? 
There's nothing. Thank you.
    Mr. Clancy. Very good. Well, again, thank you all for being 
here and being a part of this hearing today. Senator Conrad is 
very appreciative of your participation. As we work together to 
develop the common good for this reservation, we hope that this 
program, this economic recovery program can make a big 
difference and help to build up the people in this area.
    Thank you for being here.
    [Whereupon, at 2:02 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


   Prepared Statement of Cora Jones, Director, Great Plains Regional 
                Office, BIA, Department of the Interior

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Cora Jones and I am the Director for the Bureau of Indian Affairs' 
(BIA) Great Plains Regional Office. I am pleased to be here today to 
discuss the Standing Rock Sioux Tribe's Economic Recovery Fund 
provisions of Title XXXV of Public Law 102-575, the ``Three Affiliated 
Tribes and Standing Rock Sioux Tribe Equitable Compensation Act,'' an 
Act to ensure that the Three Affiliated Tribes of Fort Berthold and the 
Standing Rock Sioux Tribe were adequately compensated for the taking of 
Indian lands for the site of the Garrison Dam and reservoir, and the 
Oahe Dam and Reservoir, and for other purposes.
    The Act established the Standing Rock Sioux Tribe's Economic 
Recovery Fund in the United States Treasury. In fiscal year 1993, the 
U.S. Treasury began making annual deposits into the Economic Recovery 
Fund, as required under the Act, until it was fully capitalized at 
$90.6 million. While this principal is retained in the U.S. Treasury, 
the Tribe is authorized to use the interest earned for educational, 
social welfare, economic development, and other programs, subject to 
the approval of the Secretary. In fiscal year 1998, the Tribe could 
begin withdrawing the accrued and annual interest subject to approval 
of the Secretary. This approval authority is delegated to the BIA's 
Regional Director for the Great Plains Regional Office.
    On June 16, 2000, I approved the ``Standing Rock Sioux Tribe's 
Joint Tribal Advisory Committee Fund Access Plan''(Plan). This Plan, 
established in consultation with tribal members and the BIA, outlines 
the Tribe's proposed uses for the interest generated from the principal 
amount in the Fund. The Tribe submits requests for withdrawing funds to 
the Regional Director through the Standing Rock Agency. These requests 
are reviewed for compliance with the Act and consistency with the Plan. 
When the BIA approves a request, it is forwarded to the Special 
Trustee's Office of Trust Funds Management in Albuquerque, New Mexico, 
for final processing and payment. Thus far, the Tribe has requested and 
received six payments totaling $46.3 million in interest.
    Any funding request outside the Plan will require approval by the 
Regional Director.
    This concludes my prepared statement. I will be happy to answer any 
questions the Committee may have.
                                 ______
                                 

   Prepared Statement of Ronald Sun McNeil, President, Sitting Bull 
                                College

    I am Ronald Sun McNeil, President of Sitting Bull College. I am 
grateful and thank you for the opportunity to provide testimony on 
Public Law 102-575 and its implementation on the Standing Rock Sioux 
Indian Reservation.
    I will focus on the planning process and compliance with Public Law 
102-575, and then on the implementation of the plan approved by the 
Bureau of Indian Affairs [BIA] in 1998.
    The planning process, though not funded by BIA, was lengthy, 
stalled at one point, but eventually through a collaboration with 
Tribal Administration and Sitting Bull College [SBC] a plan was 
submitted and approved by the BIA in July 1998.
    The process began in 1996 under Chairman Jesse Taken Alive's 
administration with a tribal appropriation of $100,000. The Tribal 
Council created an advisory committee of eight members elected by each 
district, the Tribal Economic Recovery Fund Committee (TERF). The TERF 
Committee met over the course of approximately 1-year and developed 
five (5) categories of funding. The TERF Committee had local input 
through its elected members, guidance from a consultant, and occasional 
assistance from the tribal attorney in framing the categories to stay 
within the requirements of the act.
    The TERF Committee eventually exhausted its tribal appropriation 
and Chairman Taken Alive requested assistance from the BIA, but none 
was provided. With no additional funding and pending tribal elections 
(primary elections-July 1997), the TERF Committee recommendations and 
the process was stalled.
    In October 1997, SBC approached the newly elected Tribal Chairman, 
Charles Murphy with a proposal to match funding that SBC had acquired 
from the Ford Foundation, to recreate the TERF Committee, and hire a 
consultant to continue the planning process. The Tribal Council 
approved a $15,000 match, and approximately nine (9) months later, 
after numerous committee meetings and public forums, the Tribal Council 
approved the Access Plan.
    The plan expanded the original five (5) recommended categories of 
funding to six (6), and established a framework of procedures with 
which the allocated interest funds would be distributed. This Plan was 
submitted to the BIA for approval.
    The Access Plan established a process but the implementation, once 
approved by the BIA, has been flawed and the BIA has failed to monitor 
compliance with the procedures outlined in the framework of the Plan.
    The Tribal Council under heavy pressure by its constituents to fund 
the approved categories began by approving to appropriate interest 
income for the purchase of lands. The Tribe has purchased over 80,000 
acres of land within the reservation boundaries; of which 50,000 acres 
increased the economic viability of the Tribe. In and of itself the 
land purchase was a good tribal investment, which increases the tribal 
land-base, lending to its future economic stability.
    However, since the fund was accessed without a strategic plan in 
place on the d? of the individual fund and there needs to be addressed 
and since no JTAC oversight office nor JTAC business advisory board was 
created as requested by the Plan, it set in place a procedure driven by 
Tribal Council action without relation to an overall strategic plan or 
budget.
    The Tribal Council was then met with an urgent request to assist 
with the building of a sorely needed public school in the Wakpala 
District of the reservation. Also, SBC was engaged in raising funds for 
the development of a new college campus, The Tribe gave to both of 
these efforts $2 million and $4 million respectively. Again, although 
both are needed for the education and future stability of the Tribe and 
both can show matching funding and strategic plans as required by the 
Access Plan, neither was required to do so to receive funding, nor had 
the Tribe established the oversight office or the advisory board.
    Once the precedent of giving to educational institutions was 
established, the Tribal Council received over $20 million worth of 
requests from other educational institutions across the reservation. 
The Tribal Council approved the requests 1 month and then rescinded 
their actions the following month when it became apparent that the 
total requests would exceed the total accumulated interest.
    A similar precedent was established when the Tribal Council 
approved a $6 million request to Kenel District from the District's 
Economic Development Fund. The request from the District, which was 
hardest hit from the flooding of any community, was also funded without 
regard for a strategic plan from the District or from the tribal 
committee designated to do so. The Tribe has since received similar 
requests from other. tribal districts and has now planned to allocate 
$6 million for each district from future accumulated interest revenue.
    Since the Tribe has seen the demand by the other education 
institutions and districts, it has now begun requiring the Districts to 
provide strategic plans for future development, proposals, and an 
accounting of the use of those funds actually distributed.
    The Tribe has now put together a JTAC Committee to establish a 
strategic implementation plan for funding allocation to each category 
as well as establishing the oversight office and hopefully the Business 
Advisory Board.
    It should be noted that during the planning process, and even 
today, those committee members and the Tribal Council has faced extreme 
criticism for not providing for per capita payments, nor for additional 
compensation to individuals who lost land during the flooding. Congress 
would be wise to address the issue of equitable treatment of those 
individuals in the future.

[GRAPHIC] [TIFF OMITTED] T8904.001

[GRAPHIC] [TIFF OMITTED] T8904.002

[GRAPHIC] [TIFF OMITTED] T8904.003

[GRAPHIC] [TIFF OMITTED] T8904.004

[GRAPHIC] [TIFF OMITTED] T8904.005

[GRAPHIC] [TIFF OMITTED] T8904.006

[GRAPHIC] [TIFF OMITTED] T8904.007

[GRAPHIC] [TIFF OMITTED] T8904.008

[GRAPHIC] [TIFF OMITTED] T8904.009

[GRAPHIC] [TIFF OMITTED] T8904.010

[GRAPHIC] [TIFF OMITTED] T8904.011

[GRAPHIC] [TIFF OMITTED] T8904.012

[GRAPHIC] [TIFF OMITTED] T8904.013

[GRAPHIC] [TIFF OMITTED] T8904.014

[GRAPHIC] [TIFF OMITTED] T8904.015

[GRAPHIC] [TIFF OMITTED] T8904.016

[GRAPHIC] [TIFF OMITTED] T8904.017

[GRAPHIC] [TIFF OMITTED] T8904.018

[GRAPHIC] [TIFF OMITTED] T8904.019

[GRAPHIC] [TIFF OMITTED] T8904.020

[GRAPHIC] [TIFF OMITTED] T8904.021

[GRAPHIC] [TIFF OMITTED] T8904.022

[GRAPHIC] [TIFF OMITTED] T8904.023

[GRAPHIC] [TIFF OMITTED] T8904.024

[GRAPHIC] [TIFF OMITTED] T8904.025

[GRAPHIC] [TIFF OMITTED] T8904.026

[GRAPHIC] [TIFF OMITTED] T8904.027

[GRAPHIC] [TIFF OMITTED] T8904.028

[GRAPHIC] [TIFF OMITTED] T8904.029

[GRAPHIC] [TIFF OMITTED] T8904.030

[GRAPHIC] [TIFF OMITTED] T8904.031

[GRAPHIC] [TIFF OMITTED] T8904.032

[GRAPHIC] [TIFF OMITTED] T8904.033

[GRAPHIC] [TIFF OMITTED] T8904.034

[GRAPHIC] [TIFF OMITTED] T8904.035

[GRAPHIC] [TIFF OMITTED] T8904.036

[GRAPHIC] [TIFF OMITTED] T8904.037

[GRAPHIC] [TIFF OMITTED] T8904.038

[GRAPHIC] [TIFF OMITTED] T8904.039

[GRAPHIC] [TIFF OMITTED] T8904.040

[GRAPHIC] [TIFF OMITTED] T8904.041

[GRAPHIC] [TIFF OMITTED] T8904.042

[GRAPHIC] [TIFF OMITTED] T8904.043

[GRAPHIC] [TIFF OMITTED] T8904.044

[GRAPHIC] [TIFF OMITTED] T8904.045

[GRAPHIC] [TIFF OMITTED] T8904.046

[GRAPHIC] [TIFF OMITTED] T8904.047

[GRAPHIC] [TIFF OMITTED] T8904.048

[GRAPHIC] [TIFF OMITTED] T8904.049

[GRAPHIC] [TIFF OMITTED] T8904.050

[GRAPHIC] [TIFF OMITTED] T8904.051

[GRAPHIC] [TIFF OMITTED] T8904.052

[GRAPHIC] [TIFF OMITTED] T8904.053

[GRAPHIC] [TIFF OMITTED] T8904.054

[GRAPHIC] [TIFF OMITTED] T8904.055

[GRAPHIC] [TIFF OMITTED] T8904.056

[GRAPHIC] [TIFF OMITTED] T8904.057

[GRAPHIC] [TIFF OMITTED] T8904.058

[GRAPHIC] [TIFF OMITTED] T8904.059

[GRAPHIC] [TIFF OMITTED] T8904.060

[GRAPHIC] [TIFF OMITTED] T8904.061

[GRAPHIC] [TIFF OMITTED] T8904.063

[GRAPHIC] [TIFF OMITTED] T8904.062

[GRAPHIC] [TIFF OMITTED] T8904.064

[GRAPHIC] [TIFF OMITTED] T8904.065

[GRAPHIC] [TIFF OMITTED] T8904.066

[GRAPHIC] [TIFF OMITTED] T8904.067

[GRAPHIC] [TIFF OMITTED] T8904.068

[GRAPHIC] [TIFF OMITTED] T8904.069

[GRAPHIC] [TIFF OMITTED] T8904.070

[GRAPHIC] [TIFF OMITTED] T8904.071

[GRAPHIC] [TIFF OMITTED] T8904.072

[GRAPHIC] [TIFF OMITTED] T8904.074

[GRAPHIC] [TIFF OMITTED] T8904.073

[GRAPHIC] [TIFF OMITTED] T8904.075

[GRAPHIC] [TIFF OMITTED] T8904.076

[GRAPHIC] [TIFF OMITTED] T8904.077

[GRAPHIC] [TIFF OMITTED] T8904.078

[GRAPHIC] [TIFF OMITTED] T8904.079

[GRAPHIC] [TIFF OMITTED] T8904.080

[GRAPHIC] [TIFF OMITTED] T8904.081

[GRAPHIC] [TIFF OMITTED] T8904.082

[GRAPHIC] [TIFF OMITTED] T8904.083

[GRAPHIC] [TIFF OMITTED] T8904.084

[GRAPHIC] [TIFF OMITTED] T8904.085

[GRAPHIC] [TIFF OMITTED] T8904.086

[GRAPHIC] [TIFF OMITTED] T8904.087

[GRAPHIC] [TIFF OMITTED] T8904.088

[GRAPHIC] [TIFF OMITTED] T8904.089

[GRAPHIC] [TIFF OMITTED] T8904.090

[GRAPHIC] [TIFF OMITTED] T8904.091

[GRAPHIC] [TIFF OMITTED] T8904.092

[GRAPHIC] [TIFF OMITTED] T8904.093

[GRAPHIC] [TIFF OMITTED] T8904.094

[GRAPHIC] [TIFF OMITTED] T8904.095

[GRAPHIC] [TIFF OMITTED] T8904.096

[GRAPHIC] [TIFF OMITTED] T8904.097

[GRAPHIC] [TIFF OMITTED] T8904.098

[GRAPHIC] [TIFF OMITTED] T8904.099

[GRAPHIC] [TIFF OMITTED] T8904.100

[GRAPHIC] [TIFF OMITTED] T8904.101

[GRAPHIC] [TIFF OMITTED] T8904.102

[GRAPHIC] [TIFF OMITTED] T8904.103

[GRAPHIC] [TIFF OMITTED] T8904.104

[GRAPHIC] [TIFF OMITTED] T8904.105

[GRAPHIC] [TIFF OMITTED] T8904.106

[GRAPHIC] [TIFF OMITTED] T8904.107

[GRAPHIC] [TIFF OMITTED] T8904.108

[GRAPHIC] [TIFF OMITTED] T8904.109

[GRAPHIC] [TIFF OMITTED] T8904.110

[GRAPHIC] [TIFF OMITTED] T8904.111

[GRAPHIC] [TIFF OMITTED] T8904.112

[GRAPHIC] [TIFF OMITTED] T8904.113

[GRAPHIC] [TIFF OMITTED] T8904.114

[GRAPHIC] [TIFF OMITTED] T8904.115

[GRAPHIC] [TIFF OMITTED] T8904.116

[GRAPHIC] [TIFF OMITTED] T8904.117

[GRAPHIC] [TIFF OMITTED] T8904.118

[GRAPHIC] [TIFF OMITTED] T8904.119

[GRAPHIC] [TIFF OMITTED] T8904.120

[GRAPHIC] [TIFF OMITTED] T8904.121

[GRAPHIC] [TIFF OMITTED] T8904.122

[GRAPHIC] [TIFF OMITTED] T8904.123

[GRAPHIC] [TIFF OMITTED] T8904.124

[GRAPHIC] [TIFF OMITTED] T8904.125

[GRAPHIC] [TIFF OMITTED] T8904.126

[GRAPHIC] [TIFF OMITTED] T8904.127

[GRAPHIC] [TIFF OMITTED] T8904.128

[GRAPHIC] [TIFF OMITTED] T8904.129

[GRAPHIC] [TIFF OMITTED] T8904.130

[GRAPHIC] [TIFF OMITTED] T8904.131

[GRAPHIC] [TIFF OMITTED] T8904.132

[GRAPHIC] [TIFF OMITTED] T8904.133

[GRAPHIC] [TIFF OMITTED] T8904.134

[GRAPHIC] [TIFF OMITTED] T8904.135

[GRAPHIC] [TIFF OMITTED] T8904.136

[GRAPHIC] [TIFF OMITTED] T8904.137

[GRAPHIC] [TIFF OMITTED] T8904.138

[GRAPHIC] [TIFF OMITTED] T8904.139

[GRAPHIC] [TIFF OMITTED] T8904.140

[GRAPHIC] [TIFF OMITTED] T8904.141

[GRAPHIC] [TIFF OMITTED] T8904.142

[GRAPHIC] [TIFF OMITTED] T8904.143

[GRAPHIC] [TIFF OMITTED] T8904.144

[GRAPHIC] [TIFF OMITTED] T8904.145

[GRAPHIC] [TIFF OMITTED] T8904.146

[GRAPHIC] [TIFF OMITTED] T8904.147

[GRAPHIC] [TIFF OMITTED] T8904.148

[GRAPHIC] [TIFF OMITTED] T8904.149

[GRAPHIC] [TIFF OMITTED] T8904.150

[GRAPHIC] [TIFF OMITTED] T8904.151

[GRAPHIC] [TIFF OMITTED] T8904.152

[GRAPHIC] [TIFF OMITTED] T8904.153

[GRAPHIC] [TIFF OMITTED] T8904.154

[GRAPHIC] [TIFF OMITTED] T8904.155

[GRAPHIC] [TIFF OMITTED] T8904.156

[GRAPHIC] [TIFF OMITTED] T8904.157

[GRAPHIC] [TIFF OMITTED] T8904.158

[GRAPHIC] [TIFF OMITTED] T8904.159

[GRAPHIC] [TIFF OMITTED] T8904.160

[GRAPHIC] [TIFF OMITTED] T8904.161

[GRAPHIC] [TIFF OMITTED] T8904.162

[GRAPHIC] [TIFF OMITTED] T8904.163

[GRAPHIC] [TIFF OMITTED] T8904.164

[GRAPHIC] [TIFF OMITTED] T8904.165

[GRAPHIC] [TIFF OMITTED] T8904.166

[GRAPHIC] [TIFF OMITTED] T8904.167

[GRAPHIC] [TIFF OMITTED] T8904.168

[GRAPHIC] [TIFF OMITTED] T8904.169

[GRAPHIC] [TIFF OMITTED] T8904.170

[GRAPHIC] [TIFF OMITTED] T8904.171

[GRAPHIC] [TIFF OMITTED] T8904.172

[GRAPHIC] [TIFF OMITTED] T8904.173

[GRAPHIC] [TIFF OMITTED] T8904.174

[GRAPHIC] [TIFF OMITTED] T8904.175

[GRAPHIC] [TIFF OMITTED] T8904.176

[GRAPHIC] [TIFF OMITTED] T8904.177

[GRAPHIC] [TIFF OMITTED] T8904.178

[GRAPHIC] [TIFF OMITTED] T8904.179

[GRAPHIC] [TIFF OMITTED] T8904.180

[GRAPHIC] [TIFF OMITTED] T8904.181

[GRAPHIC] [TIFF OMITTED] T8904.182

[GRAPHIC] [TIFF OMITTED] T8904.183

[GRAPHIC] [TIFF OMITTED] T8904.184

[GRAPHIC] [TIFF OMITTED] T8904.185

[GRAPHIC] [TIFF OMITTED] T8904.186

[GRAPHIC] [TIFF OMITTED] T8904.187

[GRAPHIC] [TIFF OMITTED] T8904.188

                               <all>

</pre></body></html>
